<html>
<title> - [H.A.S.C. No. 109-113] ARMY AND MARINE CORPS RESET STRATEGIES FOR GROUND EQUIPMENT AND ROTORCRAFT</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


 
                         [H.A.S.C. No. 109-113] 
    ARMY AND MARINE CORPS RESET STRATEGIES FOR GROUND EQUIPMENT AND 
                               ROTORCRAFT 

                               __________

                                HEARING

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                             JUNE 27, 2006

                                     
             [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                              -------

                     U.S. GOVERNMENT PRINTING OFFICE

32-978 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001
      


















                               
                   HOUSE COMMITTEE ON ARMED SERVICES
                       One Hundred Ninth Congress

                  DUNCAN HUNTER, California, Chairman
CURT WELDON, Pennsylvania            IKE SKELTON, Missouri
JOEL HEFLEY, Colorado                JOHN SPRATT, South Carolina
JIM SAXTON, New Jersey               SOLOMON P. ORTIZ, Texas
JOHN M. McHUGH, New York             LANE EVANS, Illinois
TERRY EVERETT, Alabama               GENE TAYLOR, Mississippi
ROSCOE G. BARTLETT, Maryland         NEIL ABERCROMBIE, Hawaii
HOWARD P. ``BUCK'' McKEON,           MARTY MEEHAN, Massachusetts
    California                       SILVESTRE REYES, Texas
MAC THORNBERRY, Texas                VIC SNYDER, Arkansas
JOHN N. HOSTETTLER, Indiana          ADAM SMITH, Washington
WALTER B. JONES, North Carolina      LORETTA SANCHEZ, California
JIM RYUN, Kansas                     MIKE McINTYRE, North Carolina
JIM GIBBONS, Nevada                  ELLEN O. TAUSCHER, California
ROBIN HAYES, North Carolina          ROBERT A. BRADY, Pennsylvania
KEN CALVERT, California              ROBERT ANDREWS, New Jersey
ROB SIMMONS, Connecticut             SUSAN A. DAVIS, California
JO ANN DAVIS, Virginia               JAMES R. LANGEVIN, Rhode Island
W. TODD AKIN, Missouri               STEVE ISRAEL, New York
J. RANDY FORBES, Virginia            RICK LARSEN, Washington
JEFF MILLER, Florida                 JIM COOPER, Tennessee
JOE WILSON, South Carolina           JIM MARSHALL, Georgia
FRANK A. LoBIONDO, New Jersey        KENDRICK B. MEEK, Florida
JEB BRADLEY, New Hampshire           MADELEINE Z. BORDALLO, Guam
MICHAEL TURNER, Ohio                 TIM RYAN, Ohio
JOHN KLINE, Minnesota                MARK E. UDALL, Colorado
CANDICE S. MILLER, Michigan          G.K. BUTTERFIELD, North Carolina
MIKE ROGERS, Alabama                 CYNTHIA McKINNEY, Georgia
TRENT FRANKS, Arizona                DAN BOREN, Oklahoma
BILL SHUSTER, Pennsylvania
THELMA DRAKE, Virginia
JOE SCHWARZ, Michigan
CATHY McMORRIS, Washington
MICHAEL CONAWAY, Texas
GEOFF DAVIS, Kentucky
               Paul Arcangeli, Professional Staff Member
               Alexis Lasalle, Professional Staff Member
                   Christine Roushdy, Staff Assistant





















                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2006

                                                                   Page

Hearing:

Tuesday, June 27, 2006, Army and Marine Corps Reset Strategies 
  for Ground Equipment and Rotorcraft............................     1

Appendix:

Tuesday, June 27, 2006...........................................    43
                              ----------                              

                         TUESDAY, JUNE 27, 2006
    ARMY AND MARINE CORPS RESET STRATEGIES FOR GROUND EQUIPMENT AND 
                               ROTORCRAFT
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Hunter, Hon. Duncan, a Representative from California, Chairman, 
  Committee on Armed Services....................................     1
Skelton, Hon. Ike, a Representative from Missouri, Ranking 
  Member, Committee on Armed Services............................     2

                               WITNESSES

Hagee, Gen. Michael W., Commandant of the Marine Corps, U.S. 
  Marine Corps...................................................     7
Schoomaker, Gen. Peter J., Chief of Staff, U.S. Army.............     4

                                APPENDIX

Prepared Statements:

    Hagee, Gen. Michael W........................................    50
    Schoomaker, Gen. Peter J.....................................    57
    Weldon Hon. Curt.............................................    47

Documents Submitted for the Record:

    [There were no Documents submitted.]

Questions and Answers Submitted for the Record:

    Ms. Bordallo.................................................    67
    Mr. Shuster..................................................    67
    Mr. Taylor...................................................    67
    ARMY AND MARINE CORPS RESET STRATEGIES FOR GROUND EQUIPMENT AND 
                               ROTORCRAFT

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                            Washington, DC, Tuesday, June 27, 2006.
    The committee met, pursuant to call, at 2 p.m., in room 
2118, Rayburn House Office Building, Hon. Duncan Hunter 
(chairman of the committee) presiding.

OPENING STATEMENT OF HON. DUNCAN HUNTER, A REPRESENTATIVE FROM 
       CALIFORNIA, CHAIRMAN, COMMITTEE ON ARMED SERVICES

    The Chairman. The committee will come to order.
    Today, the Armed Services Committee meets to receive 
testimony on how the Army and Marine Corps plan to fund 
equipment reset on military equipment coming back from Iraq and 
Afghanistan. This process includes maintenance, 
recapitalization, and replacement of a majority of the mission-
capable equipment belonging to the two services.
    After we follow the adjournment of this open portion of the 
hearing, the committee will meet in 2212 for a classified 
briefing on equipment reset; and at that point, we will be able 
to talk about a few things off camera that relate to this 
subject.
    Operation Iraqi Freedom and Operation Enduring Freedom have 
placed severe demands on ground and aviation equipment 
supporting our Army and Marine Corps forces; and, therefore, 
resetting the force is an essential element in maintaining our 
ability to conduct this war, as well as preparing for any 
future threats.
    We have got a panel of two very distinguished witnesses 
with us today, who are going to discuss how equipment reset is 
currently managed, what will be necessary to fully accomplish 
reset now and in the future, and what funding the services will 
require. And, of course, we use this term ``reset'' to 
basically mean ``get ready for the next contingency.''
    And we know we are going to have one, and we don't want to 
have the legacy of the operations in Afghanistan and Iraq be 
that we wore out our equipment and didn't replace it. So at 
this critical juncture in this conflict in these two 
warfighting theaters, I think it is appropriate that we figure 
out how we are going to get ready; how we are going to replace 
this, in some cases, heavily worn equipment and, in other 
cases, more lightly worn equipment, but get ready for the next 
one. Being ready is the key, and we don't want the legacy of 
these operations to be that we wore out the platforms and 
didn't replace them or didn't repair them.
    So we know that you folks have to dedicate sufficient 
priority and resources to reset despite the fact that you have 
got current budgetary pressures and ongoing requirements. I 
look forward to the witnesses' testimony and the discussion 
that will follow, and I am sure that we are going to learn a 
lot about this very crucial issue. And it is one that is going 
to require, I think, some pressure from you folks and some 
understanding and cooperation from the White House and from the 
Office of Management and Budget (OMB).
    In my estimation, this isn't the type of an exercise that 
requires an obligatory net down as the Marine Corps and the 
Army give their evaluation on what it is going to take to reset 
the forces, to move that number to OMB and have them shave that 
number and cut that number back without hard evidence to 
justify why it should be less than the number that you folks 
give them.
    So this is going to require, I think, the cooperation of 
OMB, it is going to require some push from you, and I think it 
is going to require some work on our part.
    So, gentlemen, thank you for being with us today. And I 
don't have to introduce these two gentlemen to the committee, 
but they are Peter J. Schoomaker, the Chief of Staff of the 
United States Army; and General Michael W. Hagee, the 
Commandant of the United States Marine Corps.
    Thank you for being with us.
    And before we take off, let me turn to my colleague, Mr. 
Skelton, for any remarks he would like to make.

STATEMENT OF HON. IKE SKELTON, A REPRESENTATIVE FROM MISSOURI, 
          RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Skelton. Mr. Chairman, thank you very much.
    General Schoomaker, General Hagee, welcome back.
    Mr. Chairman, before I make my remarks about the readiness 
of the Army and Marine Corps equipment, I would like to share 
my thoughts on the recently released information of a possible 
plan for troop redeployment from Iraq.
    Let me say that I am incensed that General Casey's 
recommendation to the President and Secretary Rumsfeld for 
possible force redeployment in the coming months were leaked by 
someone obviously in the administration to the New York Times. 
The options presented to the President for a successful 
operation end should not be on the front page of a major paper. 
Such a leak does not benefit the considered deliberation of 
military operations; it can only serve a political purpose. And 
we Members of Congress in overseeing the Department of Defense 
should have been kept informed of our senior military 
commanders' best thinking and administration decisions in the 
appropriate forum.
    That said, Mr. Chairman, I am pleased to hear that the 
Iraqi and the American people may begin to see a correlation 
between the increasing numbers and capability of Iraqi 
battalions on the one hand and some reduction in the American 
combat power on the other. This, I have suggested for some 
time.
    This apparent consideration of options could not come at a 
better time, considering the poor readiness posture of the Army 
and Marine Corps equipment. Over the last several years, we 
have seen readiness rates plummet as the operations tempo in 
Iraq has climbed. Readiness rates for equipment have fallen so 
far that I fear they now present a strategic risk to respond to 
contingencies we may face beyond our current commitments in 
Iraq and in Afghanistan.
    Nearly 40 percent of the Army and Marine Corps ground 
equipment is deployed to the Central Command theater. That 
equipment is suffering terribly due to battle losses and 
damage, increased operations and, of course, the harsh climate.
    Since the start of the war, the Army has bought over 1,000 
wheeled vehicles and nearly 100 armored vehicles. Increased 
usage and the weight from extra armor are wearing out equipment 
in Iraq up to nine times the peacetime rate. That means that 
some equipment has had the equivalent of 27 years' worth of 
wear since the start of the war in Iraq.
    To keep this equipment serviceable, the Army and Marines 
have had to expend extraordinary effort. To their credit, the 
readiness rates for equipment deployed to Central Command 
remain high, with spare equipment and repair parts flowing 
quickly to the fight.
    Unfortunately, theater readiness has come at the expense of 
equipment here in the continental United States, or CONUS. 
Readiness reporting from nondeployed Army units shows that 
equipment readiness continues to fall with very few CONUS units 
rated as fully mission capable. These low mission-capable rates 
disturb me greatly, as they are an indicator of a military 
under great stress.
    Nondeployed units are our strategic base. They are the 
units we will call if a crisis emerges that requires United 
States military intervention. Looking at these readiness rates, 
I truly wonder if these units will be able to answer if the 
call comes.
    The cost of all this repair and maintenance is enormous. 
With the Army spending $13.5 billion in 2006 alone, as General 
Schoomaker's testimony will point out and as reported in 
today's Washington Post, the Army will require a stunning $17 
billion next year for reset.
    Even more disturbing is that the largest bill for reset 
will not come due until after combat operations end, when the 
Army and Marine Corps are fully able to repair and replace 
their ground equipment and rotary aircraft. At that point, 
future budget pressure may make it difficult to afford the 
reset, leaving us with significant shortfalls of equipment to 
fill a transforming military.
    This Congress has the responsibility to provide for our 
force, for the battles they are in today and those they may 
fight tomorrow. To do that and to budget responsibly, we must 
know the true and full cost of the bill that will come due.
    Mr. Chairman, the Army and Marine Corps have been involved 
in prolonged combat under the harshest of conditions. This 
combat has taken an enormous toll on troops and, of course, on 
their equipment. We have a strategic interest in Iraq, but we 
may have strategic interests around the world that we must be 
prepared to defend or deter or fight. We cannot afford to allow 
the war in Iraq to destroy our ability to fight and win in 
other contingencies, should they arise.
    Our Army and Marine Corps must have what they need to fight 
and win. We must understand what it will take to provide our 
forces what they need, what the costs are, and over what time 
horizon.
    These are tough questions, Mr. Chairman. Our future 
security, however, rests on them. Thank you.
    The Chairman. I thank the gentleman.
    And, gentlemen, thank you for being with us today.
    I might comment to my colleague that the plans that are 
being developed, that are now coming forth on the handoff of 
forces and the security burden in Iraq, are appropriately a 
function of the judgment of the combat commanders on the ground 
in Iraq and not the judgment of a Senator from Wisconsin or a 
Congressman from California. That is the way it should be. And 
we are meeting today to do exactly what the gentleman stated, 
which is to ascertain what it is going to take to reset these 
forces and make sure that we are maintaining a ready Army and a 
ready Marine Corps.
    So General Schoomaker, General Hagee thanks again. It looks 
like you have got a full backup team there.
    General Schoomaker, why don't you tell us what you need.

  STATEMENT OF GEN. PETER J. SCHOOMAKER, CHIEF OF STAFF, U.S. 
                              ARMY

    General Schoomaker. Mr. Chairman, thank you very much.
    The Chairman. And, without objection, your statement will 
be taken in the record in full, as will General Hagee's, so 
feel free to summarize.
    General Schoomaker. Thank you very much.
    And, Congressman Skelton, thank you and the distinguished 
members of the committee.
    Normally, when I testify here, I am very brief as an 
opening statement, but I am going to be a little bit more 
lengthy right now, because I want to make sure that we get 
everything into the context of what we are talking about.
    America's Army remains at war, and we will be fighting this 
war for the foreseeable future. This is not just the Army's 
war. Yet, in light of the scale of our commitment, we bear the 
majority of the burden, serving side by side with the Marines 
and our other sister services and Coalition partners.
    To prevail in the long struggle in which we are now 
engaged, we must maintain our readiness by resetting those who 
have deployed through a disciplined, orderly reconstitution of 
combat power. Our soldiers' effectiveness depends upon a 
national commitment to recruit, train, equip, and support them 
properly. This commitment must be underwritten by consistent 
investment.
    Historically, as I have testified here on many occasions, 
the Army has been underresourced, and it is a fact that the 
decade preceding the attacks of September 11, 2001, was no 
exception. Army investment accounts were underfunded by 
approximately $100 billion and 500,000 soldiers, active, guard, 
and reserve, were reduced from the total Army end strength.
    There were about $56 billion in equipment shortages at the 
opening of the ground campaign in Iraq in the spring of 2003. 
In contrast, at the height of the Second World War, defense 
expenditures exceeded 38 percent of the gross domestic product. 
Today, they amount to about 3.8 percent, and are projected to 
shrink.
    We are going the direction of our North Atlantic Treaty 
Organization (NATO) allies. In this extraordinarily dangerous 
time for the Nation, we can and must reverse this trend.
    Today, I am here to discuss the magnitude of the Army's 
reset challenge and our strategy for resourcing this critical 
requirement. Our plan will enable us to properly reset our Army 
while supporting our strategy to transform, to modernize, and 
to realign our entire global force posture and infrastructure 
to deal with the challenges we will face as required by the 
2006 Quadrennial Defense Review.
    For the last 5 years, a period longer than World War II, 
the Army has had as many as 18 to 20 brigade combat teams 
deployed on a rotational basis in combat conditions. When you 
count the military and police training transition teams, base 
security forces which are in addition to the brigade combat 
teams, the Army currently has nearly 35 brigades' worth of 
soldiers, leaders, and equipment deployed in our current 
theater of operations, more than our estimates over the past 2 
years.
    Supporting these combat arms formations are an additional 
group, a substantial number of command and control 
organizations, for instance, the Multinational Force-Iraq, the 
Multinational Corps-Iraq, the Combined Forces Command-
Afghanistan, et cetera, and a large and complex foundation of 
combat support and combat service support to furnish the entire 
theater level operational fires, intelligence, engineering, 
logistics, and other forms of support for joint and Army 
forces.
    This sustained strategic demand has placed a tremendous 
strain on the Army's people and equipment which have been 
employed in the harsh operating environments of Iraq and 
Afghanistan. In Operation Iraqi Freedom, for example, crews are 
driving tanks in excess of 4,000 miles a year, five times more 
than programmed annual usage rate of 800 miles.
    Army helicopters are experiencing usage rates roughly two 
to three times programmed rates. Our truck fleet is 
experiencing some of the most pronounced problems of excessive 
wear, operating at five to six times programmed rates. This 
extreme wear is further exacerbated by the heavy armor kits and 
other force protection initiatives.
    The compounding effect of increasing tempo and severe 
operating conditions in combat is decreasing the life of our 
equipment. We require greater funding for depot maintenance, an 
area with unused capacity and a growing backlog.
    Since 9/11, we have reset and returned over 1,900 aircraft, 
over 14,000 track vehicles, almost 111,000 wheel vehicles, as 
well as thousands of other items to our operational units. By 
the end of this year, fiscal year 2006, which will end in three 
months, we will have placed approximately 290,000 major items 
of equipment into reset. Approximately 280,000 major items will 
remain in theater and will not redeploy to be reset until a 
drawdown is implemented.
    Our requirement for reset in fiscal year 2007 is $17.1 
billion. This includes the $4.9 billion which was deferred from 
our request for fiscal year 2006. In accordance with Office of 
Management and Budget and the policy of the Defense Department, 
we rely on supplemental funds to pay for our reset program, 
because reset costs are directly tied to damage and wear 
resulting from contingency operations.
    There is an invalid belief on the part of some that the 
Army is getting well on supplemental funding. That is an 
incorrect statement. Supplemental funding is paying for the 
cost of the war; it is not correcting the hole in the force 
that existed at the start of the war. That must be paid for 
under our base program.
    Reset costs in future years will depend on the level of 
force commitment, the activity level of those forces and the 
amount of destroyed, damaged, or excessively worn equipment. 
Unless one of these factors changes significantly, the Army 
expects the requirement beyond fiscal year 2007 to be $12 
billion to $13 billion per year through the period of the 
conflict, and for a minimum of 2 to 3 years beyond. What goes 
unfunded in 1 year carries over to the following year, 
increasing that following year's requirement and, thus, 
reducing readiness of the force.
    Reset actions include repair of equipment and replacement 
of equipment lost to combat operations or worn to the point of 
being uneconomically repairable. Reset also includes 
recapitalization of equipment where feasible and necessary. 
Resetting the force takes time, takes money, and the full 
cooperation of our joint and industrial partners. We seek to do 
this efficiently and effectively in order to use resources 
wisely and maintain preparedness for future deployments. 
Resetting units is not a one-time event; it is required for all 
redeploying units.
    In simplest terms, our reset program is designed to reverse 
the effects of combat stress on equipment. Our deployed fleets 
are aging about four years on average for every year deployed 
in theater, dramatically shortening their life.
    Reset is a cost of war that must not be borne at the 
expense of our modernization efforts. We must not mortgage the 
future readiness of the force by focusing our resources solely 
on the current challenges. This is a very important point. We 
will not escape the tyranny of rising manpower costs without 
modernization.
    With the exception of the Future Combat Systems, the Army 
has not had a major start in modernization in almost four 
decades. Additionally, our soldiers rely on and deserve the 
very best protection and equipment the Nation can provide. Our 
enemies will continue to adapt their tactics. We must remain 
ahead of them and place our soldiers in a position of advantage 
by providing them the best equipment, training, and support our 
Nation can provide.
    I would like to conclude, as I began, with a message about 
our soldiers who are serving in defense of the United States 
and allied interests around the globe deployed in more than 120 
countries. Over the past five years at war, in joint and 
combined environments, soldiers have carried the lion's share 
of the load. Since 9/11, more than 1 million Americans have 
served in Iraq and Afghanistan; many are returning for their 
second and third tours. Our soldiers understand that this is a 
struggle in which we must prevail. Despite hardships and 
dangers, they continue to answer the call of duty, and enable 
America to put boots on the ground, which is the Nation's most 
visible signal of its commitment to defending national 
interests.
    And as an aside, I will just note that we are now in our 
13th month of success in exceeding our recruiting goals for the 
United States Army; and the reenlistment rate of the two 
deployed divisions in Iraq right now is about 146 percent, 
which exceeds that rate that the Third Infantry Division set as 
a standard the previous year.
    American men and women and children hold our soldiers and 
other members of our Armed Forces in the highest regard. They 
value the commitment of these young men and women to defending 
the freedoms we enjoy and to defeating enemies who challenge 
the values that form the bedrock of our society. I am proud to 
serve with our soldiers who volunteer to serve our Nation.
    To be successful, these soldiers deserve the best 
equipment, training, and leadership our Nation can provide. 
Soldiers and their families deserve our support. It is my 
belief that we can and must afford it.
    The Nation has paid a heavy price for its historic pattern 
of unpreparedness at the start of major wars or conflicts. The 
investment in reset at this time is critical. America cannot 
afford to allow its Army to fall behind in either its readiness 
or modernization as a result of our patterns of ``upside'' and 
``downside'' investment in its defense.
    Today, we are on a path to modernize and transform the 
total Army into a modular force that is fully trained, manned, 
equipped, and supported in a manner that will enable sustained 
operations in theaters of operation like Iraq and Afghanistan, 
and those that loom on the horizon. It is critical to have your 
support on the progress we have made.
    Moreover, in light of the Nation's historic record of 
uneven investment in our Army, it is vital that we not allow 
our past to become our prologue. Or, in the words of George C. 
Marshall in his letters, by avoiding the same predicament in 
which war has always found us.
    And, with that, I will close my statement. And I look 
forward to your questions.
    Thank you very much, sir.
    The Chairman. General, thank you.
    [The prepared statement of General Schoomaker can be found 
in the Appendix on page 57.]
    The Chairman. General Hagee, thank you for your service and 
for those great Marines that are working in very difficult 
areas of operations (AO) in both theaters and around the world. 
What do you think here? Are we providing enough money?
    General Hagee. We can always use more money, sir.
    The Chairman. Tell us how.

 STATEMENT OF GEN. MICHAEL W. HAGEE, COMMANDANT OF THE MARINE 
                    CORPS, U.S. MARINE CORPS

    General Hagee. Mr. Chairman, Congressman Skelton, other 
members of this distinguished committee, I am really happy to 
be here this afternoon with my good friend and joint partner, 
Pete Schoomaker. And I would like to associate myself with the 
general thrust of his comments, that we need to provide proper 
resources for these great young men and women that we have out 
there and ensure that we maintain the best fighting force the 
world has seen.
    Today--actually today, 88 years ago--the Fourth Marine 
Brigade, commanded by an Army general, exited out of a small 
place in France called Belleau Wood. They had been fighting in 
that wood for 20 days, stopped five German counterattacks. It 
was a brigade of about 8,000. They lost over 1,000 Marines, and 
over 3,000 were wounded. But they stopped that attack 45 miles 
from Paris, along with U.S. soldiers in the vicinity of 
Chateau-Thierry, literally changing world history.
    My sense is that that is what servicemen and servicewomen 
are doing today, literally changing world history. And, like 
General Schoomaker, I am really quite proud of them.
    I just returned from a trip to Iraq and to major Marine 
bases both inside the continental United States and outside, 
and I can report to you that the morale of the individual 
Marine is really quite high. Those Marines in Iraq know they 
are well equipped, well trained, well led, and they know they 
are making a difference. Marines in support back here and their 
families also know they are making a difference. And they can 
put up with quite a bit as long as they know they are properly 
resourced and their mission is important.
    Our equipment is not quite as resilient. And, as General 
Schoomaker has laid out here, we have used our equipment; it 
has actually held up relatively well, but we have used some 
very good equipment. We have aged it, as the chairman 
mentioned, five, six, seven times more than we thought that we 
would, and we have used it in a very harsh and unforgiving 
environment.
    As of 1 October 2005, our estimate was that we needed $11.7 
billion to reset Marine Corps equipment that had been used, 
consumed, in either Operation Iraqi Freedom or Operation 
Enduring Freedom. Based on execution challenges, we asked for 
$6.7 billion of that reset in this year's supplemental, and 
$5.1 billion was approved, which means that we still need $6.6 
billion to reset us as of 1 October 2005.
    Based on current operational tempo in theater, we need an 
additional $5.3 billion for both reset equipment that is used 
during that particular year and normal operation and 
maintenance that goes on. So you add those up, and you come out 
with $11.9 billion that is needed in fiscal year 2007. That is 
just to manage the equipment that we have used in Operation 
Iraqi Freedom and Operation Enduring Freedom.
    That equipment that is being used and modernized here in 
the United States also needs to be reset, and we need to ensure 
that we provide maintenance for it. And, of course, that is 
taken care of under the normal budget process, under our normal 
top line; the point here being that we must keep that top line 
up.
    Any reset that we don't get one year will have to pick it 
up the following year. And just because we get the funding does 
not mean that that equipment, of course, is readily available. 
In some cases, it will take 2 or 3 years after we obligate the 
funds in order to get the equipment. Once again, it is 
absolutely critical that we get the funding and that we get it 
early in the budget process.
    Our top line for fiscal year 2007 is $18.2 billion. 
Obviously, there is no way that we could absorb the reset costs 
in our top line without almost a doubling of our top line.
    Like General Schoomaker, I share your commitment to our 
servicemen, servicewomen, and their families to ensure that we 
have the proper resources. And I look forward to your 
questions.
    [The prepared statement of General Hagee can be found in 
the Appendix on page 50.]
    The Chairman. Thank you, General Hagee and General 
Schoomaker.
    General Schoomaker, I have got here that we had $4.9 
billion unfunded in the 2006 requirement and $13.5 billion in 
the fiscal year 2007 requirement; and that comes up, by our 
calculation here, to $18.4 billion that should be requested for 
fiscal 2007. You just gave us 17.1. Are we making a mistake 
there in that calculation?
    General Schoomaker. Sir, my information is, we requested 
$13.5 billion in the 2006 supplemental; 4.9 of that was 
deferred to 2007.
    Our request for 2007 was 12.3. If you add the 4.9, it goes 
to 17.1.
    The Chairman. So you are adding that to 12.3?
    General Schoomaker. 12.2, sir.
    The Chairman. Okay.
    And General Hagee, you laid out that you have an execution 
problem if you try to reset, if you try to capture all your 
reset backlog fairly quickly; Is that right?
    General Hagee. That is correct, sir.
    The Chairman. Why don't you give us, for the committee, an 
understanding that--we know that your equipment is going 
through a lot of wear and tear out there, and you want to get a 
highest rate of readiness possible and you have got fleets of 
platforms that need repair, and in some cases need replacement. 
What is the profile?
    Kind of educate us on what the profile of this equipment, 
what the state of the equipment is.
    If you have got a reset requirement of $11.9 billion, that 
that, in theory, if it was executable--you could take 11.9 
billion this year, and you could go out in depots if it was 
executable, if you had all the material and all of the 
personnel and all of the time, and you could bring the Marine 
Corps platforms up to an acceptable reset level. Is that right?
    General Hagee. That is correct, sir.
    The Chairman. That is what you have got.
    Explain to us what the condition of the force will be as 
you bite off this reset in what I would call ``bite-size'' or 
executable chunks. What kind of readiness level does that leave 
you with?
    Do you understand what I am driving at?
    You are not going to do it all. You are not going to get 
all this done. Where does that leave the part of the fleet and 
the part of the inventory that is not attended to?
    General Hagee. Well, as you mentioned, even if we had the 
money, we would not build up immediately. It is going to take--
for example, an MB-22 takes 2 years; a light armored vehicle 
takes 3 years to build.
    But what the funding does right now, as we obligate it, it 
stops the downward trend, and then it starts to turn us back 
up. And it would still take a couple of years for us to get all 
the way back up to where every single unit has all the 
equipment that it needs and it is in A-1 condition.
    The Chairman. General Schoomaker, why don't you tell us 
what in an ideal world we would need to fund this year and how 
we would fund it, i.e., supplemental, regular bill, to handle 
the total reset problem. What is the profile?
    General Schoomaker. Just to tag on to the tail end of 
General Hagee's statement there, part of the problem in 
execution is when we get the money.
    As you know, we get the first part of the 2006, the first 
part of the Global War on Terror (GWOT) supplemental was around 
December of this year. We just received last week the 2006 
supplemental. That gives us less than two months in the fiscal 
year to complete--to spend it. So part of our problem is, as 
this thing rolls forward, we get it late.
    We have been cash-flowing ourselves now for two years, 
trying to reach over. And I am sure you are aware of the levers 
that we have had to pull to cash-flow ourselves just to get us 
to the 2006 supplemental this time, in terms of contract 
termination, release of employees, and all the rest of it, to 
do it.
    So it really has a lot to do with how it gets flowed to us.
    But I think, to answer your question, we have five major 
depots--Anniston, Red River, Tobyhanna, Corpus Christi, and 
Letterkenny. Every one of these depots has a backlog, and every 
one of these depots is operating at less than 50 percent of its 
capacity. So funding will move this forward. This is not a 
matter of execution if we get the funding with enough time to 
execute it.
    For example, M-1 tanks, small arms, and howitzers are done 
at Anniston. Right now, we have over 500 M-1 tanks backlogged 
at Anniston; we have 9,400 small arms, and over 500 other track 
vehicles backlogged there. Anniston is operating in 2006 at a 
little over 6 million direct labor hours. Its capacity is 13 
million direct labor hours.
    If you look at Red River, High Mobility Multipurpose 
Wheeled Vehicles (HMMWV), Bradleys, and heavy and medium 
trucks, we have 250 HMMWVs, 700 Bradleys, 450 heavy and medium 
trucks there. It is operating at 3.4 million direct labor 
hours. Its capacity, over 11 million.
    Take a look at Corpus Christi with all of our aviation. We 
have eight helicopters and 355 UH-60 rotor blades backlogged 
there. They are operating at 50 percent of capacity.
    Tobyhanna, 5 million of 11.4 million direct labor hours. We 
have five finder radars, communications security (COMSEC) and 
tactical security (TACSEC) terminals backlogged there. Over 
1,000 COMSEC items.
    And down at Letterkenny, HMMWVs, Patriots, generators, we 
have over 1,000 HMMWVs backlogged at Letterkenny, over 40 
Patriot launchers, and over 550 generators; and they are 
operating at about two-thirds of their capacity.
    So my view is--and I would be glad to stand corrected if I 
don't have the right view here; but my view is, we have the 
capacity to do it, we have stuff in line. We have got more 
stuff coming back in huge numbers as I read and as I said at 
the beginning of this thing; and if we have the money in time 
and the money in sufficient numbers, we will get ahead of this 
that both of us, I think, are quite concerned of, which is the 
lead time that is required to get this going.
    So I don't know what better answer I can give you, other 
than we are submitting our true numbers that we require for 
reset.
    As you know, this is linked to our base, and of course, we 
have got pressures against our base budget, as you know; and 
these compound each other. And as you take a look at the 
compounding of the base and the supplemental, then you look at 
the timing, it is very difficult to efficiently and effectively 
manage the flow of reset and recapitalization and modernization 
with the way that this works.
    The Chairman. Okay. Thank you.
    Mr. Skelton.
    And I will get back to some further questions on this as we 
get to the end of our testimony and our hearing.
    The gentleman from Missouri.
    Mr. Skelton. General Hagee, you might be interested in 
knowing that my high school Latin teacher, James M. Sellers, 
Sr., recipient of the Navy Cross, was a Marine lieutenant at 
Belleau Wood; and it was a pleasure to know him all the time, 
except during Latin class.
    General Schoomaker, you have three challenges that cost 
money. Number one is the wars in Iraq and Afghanistan. Number 
two is your modernization effort, which to your great credit 
you are pushing ahead. And number three is the reset.
    How short are you if you add all three of those up? The 
wars, the modernization, the reset; how short are you in the 
dollars that you will be receiving?
    General Schoomaker. I am going to have to ask for some help 
here. I think the reset, we have stated, we anticipate being 
about 10.7 shy of what we know right now.
    Mr. Skelton. Modernization?
    General Schoomaker. On modernization, I probably am going 
to have to give you the details for the record. What I am told 
is, what we have in the near term is sufficient for 
modernization; it is the outer years that are the challenge.
    And I think our third challenge--the cost of the war is 
reset; modernization is another challenge. I think the third 
challenge, that perhaps what you meant was in transforming the 
Army----
    Mr. Skelton. That is correct.
    General Schoomaker [continuing]. Into the future. And our 
requirement there has been $5 billion a year. That is what we 
estimate is required.
    Mr. Skelton. We have how many Army brigades deployed in 
Iraq and Afghanistan, as we speak?
    General Schoomaker. Let me look at my thing here just to be 
exact.
    Today we sit at 16 brigade combat teams.
    Mr. Skelton. That is what I mean.
    General Schoomaker. We have requests for a couple others. 
And as I have stated, because of the leadership to fill out the 
military training transition teams, to train the Iraqis and the 
Afghan army, and our individual augmentees--our security 
requirements that we have, security companies, over 50 security 
companies that are not in brigade combat teams, but they come 
from other brigade combat teams.
    We have a total equivalent of--35 brigades equivalents.
    Mr. Skelton. How many brigade combat teams are there still 
left in the United States?
    General Schoomaker. Pure brigade combat teams?
    Mr. Skelton. Yes, sir.
    General Schoomaker. Not equivalents, but brigade combat 
teams? Twenty-three.
    Mr. Skelton. Are you comfortable with the readiness level 
for the nondeployed units that are in the continental United 
States?
    General Schoomaker. No.
    Mr. Skelton. Would you explain that?
    General Schoomaker. I would like to in closed session. I 
would be glad to go into it in detail.
    Mr. Skelton. Thank you very much, General.
    The Chairman. I thank the gentleman.
    The gentleman from New York, Mr. McHugh.
    Mr. McHugh. Thank you, Mr. Chairman.
    Gentlemen, as always, it is both a pleasure and an honor to 
be with you and to salute you and those brave men and women in 
uniform that we have all had the opportunity to see in action 
in both Iraq and Afghanistan. We are enormously proud of them. 
And, obviously, a part of our challenge here is to do the right 
thing by them.
    General Schoomaker, I want to go back to your prepared 
statement. And you highlighted this yourself before you spoke 
this sentence, and I want to make sure I understand it. You 
said, ``We will not escape the tyranny of the rising manpower 
costs without modernization.''
    Put that another way for me. Are you saying that 
modernization has to come first, and that end strength, 
manpower is a subset of that? I don't want to put words in your 
mouth.
    General Schoomaker. Our personnel costs, the United States 
Army--active, guard and reserve; I am talking now about our 
active force, our civilians, and our reserve force--in 2008 
will be approximately 81 percent of our budget, about 81 
percent.
    I can provide you some detail for the record, but from my 
memory I will tell you that from 2001 until 2008 the cost of 
active forces, fully burden now, personnel costs in 2001 was 
0.7 billion for 10,000 soldiers. I am not talking about their 
equipment now, I am just talking about the personnel aspects of 
it--health care, bonuses, salary and all--about three-quarters 
of a billion dollars for 10,000 soldiers in 2001.
    It is now 1.2 billion. That is an increase of 60 percent in 
personnel costs since 2001.
    Reserve soldiers have doubled from 0.17 billion to 3.4. 
Civilians have gone from 0.58 to 0.75, or a 29 percent 
increase. So the reality is, unless we are able to escape the 
tyranny of this escalation--and the way we do that is by doing 
things that give us more capability out of our people.
    For instance, I have testified before on the Future Combat 
System (FCS) as an example. If you compare the FCS brigade to 
the heavy brigade that it is replacing, you end up with double 
the number of soldiers, in infantry squads primarily; and even 
though that brigade is smaller--in other words, the heavy 
brigade that it replaces is almost 3,800 soldiers, as we know 
it today; the Future Combat System brigade will be around 2,900 
soldiers.
    The big savings is in support personnel because of the 
common chassis, because of the technology that is in there that 
gives you precision and all the rest of it. It allows you to 
put more soldiers into things like infantry squads.
    And we can give you all the details on this. But if we 
don't move in that direction, what we end up with is a force 
that prices itself out of business.
    Mr. McHugh. So, if I may, I think you are arguing, we 
should resist, as a Congress, the temptation that may exist to 
cut FCS or other modernization efforts to become a bill-payer?
    General Schoomaker. Well, I personally believe that is 
exactly right. But I can also tell you that if we cut FCS 
totally, it wouldn't pay 50 percent of our shortfall. It is not 
a bill-payer that is going to do that.
    Mr. McHugh. Thank you.
    General Schoomaker. So we are being foolish in the long run 
is what I am saying.
    Mr. McHugh. I just wanted that very clear on the record. 
You were very eloquent, very literary, in the written 
testimony; but I wanted to make sure that we had your very 
point spoken in words on the record. And I appreciate it.
    A couple of quick questions, I hope, General, and maybe you 
can help me understand whether--this universe of what we are 
talking about. The reset for both the prepos, the prepositioned 
equipment was pretty big in this latest Iraqi incursion. A lot 
of us had a chance to visit that stuff before we started using 
it.
    Are the figures you are citing also--do they also include 
replenishment and resetting of those stocks as well, or is that 
another part of this puzzle?
    General Hagee. For us, sir, they include the prepo. Both 
our three squadrons, maritime prepositioning squadrons, and the 
equipment that we have in Norway.
    Mr. McHugh. Thank you.
    General Schoomaker, the same answer?
    General Schoomaker. Ours also includes it.
    Mr. McHugh. I see my time has expired, Mr. Chairman. I 
yield back.
    The Chairman. I thank the gentleman.
    The gentleman from Arkansas, Dr. Snyder.
    Dr. Snyder. Thank you, Mr. Chairman. The time flies, Mr. 
McHugh, with these kinds of questions.
    General Schoomaker, I have some questions I want to ask 
about the Iraqi army I want to get to, but you caught my 
attention, too, with your statement, both written and oral, 
here today about when you were talking about what has happened 
in the past and the reduction in our overall funding of the 
military; and you specifically mentioned the drop in end 
strength.
    Do you have a number in mind by which you think that we 
should increase Army end strength? I mean, there has been 
support for many years, bipartisan, on both sides of this 
committee, by members who thought that there should be a 
substantial increase in Army end strength. On June 11, on Meet 
the Press, Retired General Barry McAfree said he thought the 
Army end strength was short 80,000. Is that a number that you 
agree with?
    General Schoomaker. Not necessarily.
    Dr. Snyder. What is your number?
    General Schoomaker. Let me talk about it in a couple ways.
    First of all, we have asked to grow the Army by 30,000 
soldiers using supplemental funding, because it is going to 
take a long time to grow it, as I said 3 years ago when we 
started it; and as you take a look at where we are, you will 
see it does take a long time to grow soldiers.
    Second, we have to transform the Army, which we are doing, 
to get more out of the soldiers we have. So we need to grow our 
operational force by about 40,000 soldiers, and that is what we 
are trying to do. And we are trying to write some insurance for 
ourselves by continuing to fund the additional soldiers on the 
side, so if we need them, we will have them.
    So if Barry McAfree is right, then we will be pretty close 
to his number. But the reality is--is what I was just talking 
about here: There is no way we can afford 80,000 more soldiers.
    Dr. Snyder. Well, we can do what we decide as a country to 
do together and what priorities we set as a country.
    General Schoomaker. And I agree with that, sir.
    Dr. Snyder. And over the last several years there has been 
resistance from the administration when this committee talked 
about increasing Army end strength numbers.
    I want to talk about another topic, if I might, General 
Schoomaker, and this may be something that Mr. McHugh wants to 
pursue in our Personnel Subcommittee.
    We have got the expense of the Iraq war, the expenses that 
you all are talking about today with the recapitalization and 
reset, you have got the modernization expense. The one I want 
to talk about is the expense of equipping the Iraqi army, which 
is clearly smaller than these other things; but, to me, there 
are two parts of the critical path to success in Iraq. One of 
them is a functioning government of reconciliation that seems 
to be under way now. But the second part of it is a well-
equipped, well-functioning, well-supplied Iraqi army, committed 
to preserving that government and giving the Iraqi people the 
opportunities that we all want for them.
    I mean, anyone that I have talked to about the Iraqi army 
says it is abysmally equipped, miserably equipped. In 
Afghanistan, we have similar problems. One person I rely on 
considers the Taliban to be better equipped than the Afghan 
army.
    Now, according to the committee memo that was put out here, 
you all still have not made a decision about leaving equipment 
behind for the Iraqi army. I mean, we have been there for three 
and a half years. What is our intent with regard to setting up 
a system of getting the Iraqi equipment up to where it needs to 
be so--because we are not just talking about replacing people. 
You have to replace a well-equipped, -supplied, and -trained 
American soldier with not just well-trained, but -equipped and 
-supplied Iraqi soldier. And while training may be going well, 
equipment and supply is not going the well.
    So where are we with regard to that, and how are we going 
to get that on line after having been there for almost three 
and a half years?
    General Schoomaker. I couldn't agree with you more that we 
have to equip the Iraq and Afghan army, but it is not the 
United States Army's job to do that. And I think what we need 
to do is perhaps direct that to Central Command.
    But I will show you what we have given, if you put those 
charts up there.
    Dr. Snyder. Well, now, but there is--who is going to be 
making the decision then about--who is making the decision 
about what equipment gets left behind?
    General Schoomaker. The decision will be made in the Office 
of the Secretary of Defense (OSD) in terms of what equipment 
gets left behind. But the requirement----
    Dr. Snyder. Well, this has got to be a vital part of your 
all's planning, is it not, when you are--take Anbar Province, 
which is a million people spread out over something the size of 
one of our Western States; it is going to take very 
sophisticated equipment to do a good job of controlling that 
area in a meaningful manner.
    And so it is not going to be just enough to replace an 
American troop with an Iraqi troop. They are going to have to 
have, I assume, close air support and supply lines. And it is 
rough terrain and equipment. I mean, isn't that part of what 
the Army must think about when we are talking about who is 
going to, what troops are going to get swapped out with Iraqi 
troops?
    General Schoomaker. This is part of what General Casey and 
General Abizaid must think about. The Army may be part of the 
bill-payer.
    And if you would hold that chart up so that people can see 
it, what we have already given, 250 one-track vehicles, almost 
2,200 wheel vehicles, 153,000 small arms, 16,000 night vision 
devices, 601,000 uniforms, 242,000 sets of body armor, 56 
pieces of engineer equipment, 195 generators, 170,000 Kevlar 
helmets, 17 pieces of materials handling equipment, and on and 
on. This is what we have already given in part of the deal.
    Dr. Snyder. We have another hearing after this. But you did 
not disagree with the folks I quoted who said both the Afghan 
army and the Iraqi army are poorly equipped today.
    General Schoomaker. I am not sure I would say they are not 
as well equipped as the Taliban, because I don't believe that 
is the case. But I will tell you that they need to be better 
equipped than they are. And it is a combination of what they 
are going to buy through foreign military sales (FMS) cases, 
what we are going to give as excess defense articles, and a 
variety of other programs.
    But, remember, the equipment we give up, we have to 
replace.
    Dr. Snyder. That is why it is an additional expense.
    General Schoomaker. And that is the challenge we have got.
    The Chairman. The gentleman from New Jersey, Mr. Saxton.
    Mr. Saxton. First, let me associate myself with the remarks 
that Vic Snyder just made when he said we can afford what we 
decide it costs to fund our priorities. But I am afraid, at 
this point, maybe we haven't made that decision, as evidenced 
by the workload that is ongoing at the depots that General 
Schoomaker correctly pointed out.
    But that is not my question. Let me ask this question.
    I am told that it will cost nearly $70 billion over the 
next 5 years, certainly a significant investment by any 
measure. What is the Army's strategy to prioritize and balance 
the reset effort with other simultaneous needs of the force, 
like these: A, reequipping reserve component units that 
permanently transferred equipment to the active Army or were 
directed to leave equipment in theater; B, conducting 
transformation to modular brigades; C, developing and fielding 
the Army's FCS; D, maintaining ready prepositioned stocks of 
strategic war reserve equipment ready for future contingencies?
    If the current level of supplemental appropriations were to 
be reduced, here is the question: While operations continue at 
near the same level globally, how might the Army tackle these 
efforts to include the reset of equipment?
    General Schoomaker. The reset money that we have requested 
covers active, guard and reserve equipment consumed by the war. 
On top of that number, inside of our base budget, inside of our 
program, we have approximately $21 billion in ground equipment 
for the National Guard, that is fenced and identified to fill 
in the hole that existed and to modernize the National Guard; 
plus, about just short of $2 billion worth of aviation 
equipment for the Guard and about $3.9 billion for the Army 
Reserve.
    So it is a combination of both our base budget and what we 
have got in there that is fenced for the Guard and Reserve; and 
they are included in the reset of that equipment that has been 
consumed and left behind in the war inside of our request for 
reset.
    I am sorry. On our Army pre-positioned stocks (APS)--you 
mentioned APS--we have reset our prepositioned stocks into a 
modular set, formations. We have improved it by adding and 
resourcing the combat support and combat service support 
components of that. It is a much more usable, much more--in 
fact, its readiness rate is much higher.
    It is in standard brigade sets. It is conducive to training 
on, and it has got improved combat service support capability. 
So that is a good news story. We have put a lot of money and 
effort into that.
    Mr. Saxton. Let me just use this opportunity, Mr. Chairman, 
to say that it has been my feeling for quite some time that 
many of us have the notion that we can proceed along the lines 
that we have been, relative to some questions that Vic asked 
about force size, relative to questions about modernization, 
relative to questions about replacing worn-out equipment or 
fixing worn-out equipment. And it has been my notion for quite 
some time that we were going to come up against a wall where we 
could no longer continue without increasing the--without making 
the decision that Vic made about our priorities.
    This is a serious matter, and I am glad that General 
Schoomaker is here to bring these matters to our attention.
    The Chairman. I thank the gentleman. That is why we are 
here.
    And the gentlelady from California, Ms. Tauscher, is 
recognized.
    Ms. Tauscher. Thank you, Mr. Chairman. It is good to see 
you again, Generals.
    I have been concerned about the postwar strategy for Iraq 
for a long time. And I know that we are here to talk about 
something else, but it is the 800-pound gorilla in the room; 
and it is--I think it is folly to talk about resetting if you 
don't know how long you are going to be in Iraq, how many 
troops are required for Iraq, how much money it is going to 
cost to train up and equip the Iraqi troops.
    And I can't tell you how angry I am right now that I am 
sitting here talking about this when apparently, last week, we 
had a debate on the Senate side, and the ranking member, 
Senator Levin, came up with what I thought was a pretty 
reasonable plan, questions about a plan to partially withdraw 
our troops from Iraq; and he was completely castigated by this 
administration and by other people that accused Democrats of 
cutting and running.
    I don't consider myself to be a cutter or a runner, but I 
do take my medication on time. And when I find out over the 
weekend that General Casey was in the Pentagon most of last 
week, shopping a plan to do exactly what Senator Levin 
apparently was requesting that we begin to do, I start to say 
to myself, What's up?
    Now, apparently both of you are members of the Joint 
Chiefs, and apparently the Chairman of the Joint Chiefs and all 
of you were part of a discussion about a plan.
    I don't know what this plan is. And I sit here on the Armed 
Services Committee for ten years, and I am asked to support the 
military, which I do. I have got Travis Air Force Base in my 
district; many of my constituents' children have gone to war in 
Iraq and Afghanistan; and I don't know what this plan is. I 
don't know who has been consulted.
    But I am meant to be sitting here looking at a posture 
statement from February, General Schoomaker, which is a pretty 
glossy document, where these kinds of comments that you are 
making today about, Well, woe is me about the money part, 
really wasn't discussed.
    We are funding dramatically, to the tune of hundreds of 
billions of dollars, the Iraq war under a separate set of books 
called ``the supplemental.'' we have had a dramatic increase in 
the defense budget over the last five years. It is well over a 
half trillion dollars now.
    But I think we had better talk about Iraq. And if you two 
understand that there is a plan for us to begin to withdraw our 
troops this summer or in the fall, I would like to know what it 
is. Either one of you.
    General Hagee. That is a plan that General Casey or the OSD 
would have to brief.
    General Schoomaker. I would tell you that I listened to 
General Casey, and I saw it as a refinement and continuation of 
their thinking, and the plan that has been ongoing ever since I 
have been involved in this. So I don't know----
    Ms. Tauscher. You don't know the plan, General?
    General Schoomaker. It isn't appropriate here to discuss 
what it is he talked about, but I think it has been adequately 
described in terms of being a condition-based plan, and that 
the theater commander will make the decision about what 
portions of it we execute as we go.
    But I don't see anything that is out of sorts or unusual.
    Ms. Tauscher. Well, maybe you are not sitting where I am 
sitting, and where you stand is where you sit. And I can tell 
you right now that I don't like to be told by the New York 
Times or other press outlets, because of leaks in this 
administration, that there is a plan out there; especially when 
this country, no matter what party you are, wants to bring our 
troops home sooner and safer, they want to honor the sacrifice 
of the fighting men and women that have fallen, and they want 
to deal with the billions of dollars that we are continuously 
borrowing to fund this war, and they want to know when it is 
going to end.
    And now I would be happy to talk to you about reset. I know 
it is an important thing to do. But I can't do it in the 
context of not understanding how long we are going to be in 
Iraq.
    General Schoomaker. Well, reset will continue to be 
incremental, as I just spoke. It is going to depend upon our 
level of commitment there. And it is my belief--and I don't 
have any crystal ball, but I believe we will be in Iraq a long 
time, and Afghanistan, and fighting this Global War on Terror 
for a long time.
    A long time is a long time. I believe it is open-ended 
right now. That is my personal belief. So I am not going to 
give you any comfort.
    Ms. Tauscher. Well, Mr. Chairman, I think that you must be 
as frustrated as the rest of us to find from press reports that 
there is a plan that apparently this committee has never been 
briefed on. And I would hope in your ongoing leadership that we 
would find a forum where we could hear from, if not General 
Casey, perhaps General Pace or someone else from the Chairman 
of the Joint Chiefs or from the Pentagon as to exactly what 
they are talking about this plan might be, so that we could 
actually be informed ourselves as we make these very tough 
decisions and so we can keep our constituents informed.
    Thank you, Mr. Chairman.
    The Chairman. I thank the gentlelady. I would simply say to 
the gentlelady that the commanders and the commander in Iraq 
discuss and analyze all the time the maturity of the Iraqi 
forces that they are training up and the other factors that go 
into the AOs, the areas of operation, that each of our forces 
are in and the maturity of those forces, and when the handoff 
can take place.
    I think the difference between what the gentlelady is 
talking about and what General Casey talked about is that those 
decisions need to be a function of the judgment of the combat 
commanders and not a confirmation of the combat commanders to a 
plan that was put together in Washington, D.C., by elected 
officials.
    Ms. Tauscher. Mr. Chairman, can I ask you a question very 
briefly? These are the kinds of things I am wondering about.
    Do the force levels that supposedly we are talking about in 
this plan, do they have anything to do with objectives in Iraq? 
What are those objectives? Does the Pentagon feel that we have 
done enough and what we need to do to create a stable Iraqi 
government? Have we done enough on reconstruction? Is there 
enough security on the ground so that we can begin to withdraw 
our troops?
    How are the trained forces doing? Are we--can we provide 
similar security with less troops of ours because the others 
are standing up? I don't understand, if there is a plan, what 
metrics you are using; and I would really like to know what 
those metrics are.
    The Chairman. I would just say to the gentlelady that those 
are all appropriate questions. Incidentally, all considerations 
are being looked at by the combat commanders on the ground all 
the time in the theaters, and that is absolutely appropriate 
for the gentlelady to ask those, and we will tee those up and 
let the gentlelady ask them at our next hearing with General 
Casey.
    Mr. McHugh. May I ask the Chairman a question?
    The Chairman. Gentleman from New York.
    Mr. McHugh. I had a bipartisan trip to Iraq, the most 
recent of my six. Couple of members of this committee from the 
other side were in that trip where we met with General Casey. 
And he spoke very specifically about this plan, talked about 
his hopes to draw down troops, did very openly. What I am 
amazed about is that the question is: Why are people surprised 
to hear that the plan that went into place from the first day 
we went in is now being discussed?
    The Chairman. I think that is a reasonable question. And to 
answer that, I am going to call on the gentleman from North 
Carolina, Mr. Hayes, for his question.
    Mr. Hayes. I thought you wanted the answer, Mr. Chairman. 
Thank you for holding the hearing and thank you for being here, 
gentlemen.
    You plan to fight, and then you either fight the plan or 
fight the enemy. I appreciate that you all are fighting the the 
enemy and not the plan. As General Wagner said just a few 
months ago, using him as one example, the Iraqi Special Forces 
are now planning and executing over 30 percent of the mission, 
clearly the progress that Chairman McHugh referred to.
    So, again, even though things are not as clearcut as we 
would like for them to be, my sense of where you are going has 
been clearly documented. It hasn't always been specific, as the 
dynamic exchange; you have been very straightforward and very 
truthful about where we were and what we were doing and how we 
are to get there.
    Back to the reset issue: What is the status of our 
capability at the depot now? Does our industrial defense base 
have the capability to meet the needs of the force to reset the 
equipment we have talked about? We haven't talked about 46s, 
47s, and some aviation equipment. What is your personal opinion 
of where we stand capability-wise to reset the equipment that 
is repairable?
    General Schoomaker. Well, we have doubled the direct labor 
hours from 11 million to 24 million up to this point, and we 
can double it again--if we have the money.
    Mr. Hayes. Is it a three- or two-shift operation at the 
depots now?
    General Schoomaker. That depends on the depot, but I am 
told the average is around two shifts.
    Mr. Hayes. So there is more capacity. Again, it is an 
issue.
    General Schoomaker. There is double the capacity remaining.
    General Hagee. We are at 1.7.
    Mr. Hayes. Looking at the list of equipment to the Iraqis, 
obviously, and to the Afghans is critically important. How do 
you sort of evaluate--I would think if there is equipment that 
they can repair and find very usable, we might not have the 
same use for, and you had the transportation costs to bring 
back to the depot, to take back, and then our labor cost. Has 
that been factored in, I would assume, in all of the actions?
    General Schoomaker. Of those wheeled vehicles, I stated a 
minute ago that I had on the chart there, about 1,200 of those 
are deuce-and-a-half trucks, 2-1/2-ton trucks that are legacy 
trucks that we have repaired in theater and provided them, that 
we would not like to continue to have. We would like to replace 
them with modern equipment, primarily in the Guard and Reserve.
    Mr. Hayes. At the same time, deuce-and-a-half, you can't 
have an army without--a deuce-and-a-half is going to be more 
than a enough vehicles to sustain the Iraqis and Afghans; would 
that not be a true statement?
    General Schoomaker. That is true. We are repairing them and 
using them to great effect. What we are trying to do is 
standardize the force, modernize it to the LMTV, the more 
modern version of it, and that is why they were declared to 
transfer.
    Mr. Hayes. Are you all asking for sufficient assets to 
reconstitute reset, and have what you need? And I say ``you 
need,'' we obviously all want the best, but----
    General Schoomaker. For the Army we are asking for 100 
percent of what we feel we need to fill out the Army to its 
readiness levels that is required.
    Mr. Hayes. In referring back to the things that I know more 
about than others, we are scrambling for cash at Fort Bragg, 
and do we need to regroup and try to meet some of those needs 
as well as the long-term needs we are talking about here as 
well?
    General Schoomaker. Part of the reasons you are scrambling 
for cash at Fort Bragg is because of the timing of the money 
that we have been getting. We have been having to do cash flow 
ourselves, because the money has been late every year in every 
appropriation, and so we have had to eat inside of ourselves to 
cash flow, which I am sure from a business perspective you 
understand.
    Mr. Hayes. Absolutely.
    Aviation, helicopters. B-22, is that factored into the 
process?
    General Hagee. Yes, sir, it is. As you know, requested to 
replace the 446s that we lost during the war, with MV-2s. Three 
were approved, one was deferred to next year. The balance of 
the MV-22s are underneath our top line, the normal budget 
process, so it is absolutely calculated in there.
    Mr. Hayes. Any other issues we need to focus on? I am going 
to be through on time, like we seldom do around here.
    Chairman, I yield back.
    The Chairman. Thank the gentleman. The gentleman from New 
York, Mr. Israel.
    Mr. Israel. Thank you, Mr. Chairman. Generals, it is good 
to see you both and I have appreciated the conversations that 
both of you have had with me and with Mr. Skelton on 
professional military education. I think it is important that 
we, when we talk in terms of resetting our hardware, at we not 
lose focus on resetting our software. And if I have time, will 
ask you to delve into that, that I would like to lead in a 
slightly different direction and pick up on the issue of 
priorities.
    I represent Long Island. And we just had a hurricane 
preparedness summit on Long Island. We are told there is a 
significant chance of getting a Category 3 hurricane on Long 
Island this year; good chance of getting a Category 5 
hurricanes on Long Island in the next 15 years. Here is the 
problem. Today our National Guard reports that they have 52 
percent of the critical equipment, the rolling stock, that they 
need to be able to respond to a major hurricane. Of that 52 
percent, 20 percent is outdated equipment fielded in place of 
more reliable equipment. They have one-third of the Humvees 
that they had need.
    Meanwhile, I have just read in the Armed Forces Information 
Service that we have just delivered 50--and I am quoting--
``brand new tan Humvees to the Iraqi Army 3rd Brigade.
    So my question is this: How can I get some of those tan 
Humvees from Iraqi Army 3rd Brigade to help my folks deal with 
a hurricane? Why do we have to deliver brand-new tan Humvees to 
the Iraqi Army 3rd Brigade? Can we give them some of the 
equipment that the New York National Guard is holding onto and 
maybe get more capable, reliable equipment in New York? How are 
the needs--bottom line is this: How are the needs of the guard 
and reserve being prioritized and assessed as we assess the 
reset and modernization? Are we going to kind of let them fend 
for themselves, or are we taking into consideration some of the 
very significant needs that they are going to have? General?
    General Schoomaker. As I mentioned a minute ago, we have 
$21 billion in our base program that is fenced for National 
Guard equipment. That is ground equipment.
    We also have about--almost $2 billion, 1.9 billion for 
aviation. As you know, the light utility helicopter (LUH) and 
the joint cargo aircraft, all those reported are fixed for the 
National Guard.
    And we have about $3.9 billion for the Army Reserve that is 
fenced in our program. They are also totally integrated into 
our reset costs. So all of the equipment they have left behind, 
all of the equipment that has been consumed is part of our 
reset cost.
    I believe the Humvees you are talking about that went to 
the Iraqis are part of the theater's program to use foreign 
military sales, and they are going direct to vendors to 
purchase those.
    Now, we have the capacity to purchase more, build more of 
these wheeled vehicles, Humvees, and reset more. It is a matter 
of funding. And so the shortest distance to getting the 
National Guard fixed is to fund the programs and the reset so 
we can do it expeditiously.
    I think you will remember from the posture hearings, I 
stated that if we had more funding that I would accelerate the 
program in the Army. I would not broaden our appetite. I would 
accelerate what we are doing. And I think that is the answer to 
your question.
    Mr. Israel. General, I heard the figures that you 
mentioned. Can we expect that those figures are adequate to 
bring the National Guard in New York, for example, to 80 
percent of operational capability? Is that going to be enough 
to restore some of the equipment losses that the New York 
National Guard has experienced?
    General Schoomaker. Well, I think that--I am not quite sure 
I understand the question but there is a different kind of 
equipment and a lesser density of equipment required for 
hurricane and disaster relief.
    Mr. Israel. Rolling stock.
    General Schoomaker. Wheeled vehicles, communications, 
aviation, water purification, medical, military police (MPs), 
these are the kind of things you need for natural disasters and 
things like that, as opposed to tanks, Bradlees, and these kind 
of things.
    We must fund both, because what we are using our Guard for 
is both our Homeland Security homeland defense mission as well 
as the away game. And so because of their availability to us 
under the force generation model as only one out of six years, 
and they will spend the majority of their time supporting their 
State, we have to think about both of these needs and 
understand that we probably need to fund the first need first, 
which is the Homeland Security need, and then make sure that we 
can continue to fund them for the larger warfighting mission. 
And that is the strategy that we have.
    Now remember, we had $56 billion worth of shortages when we 
crossed the berm in going north into Iraq. A lot of that 
shortage was in the guard and reserve because, by requirement, 
we had to put our best readiness into our active force, which 
was our operational force, not our strategic Reserve like the 
Guard and Reserves were. So we are trying to rectify decades' 
worth of decisions and priorities.
    And I think if you take a look at the amount of money we 
put in our program, which is about 4 or 5 times the historical 
average--that $23 billion we have put in there is almost five 
times any previous program that we have had--is a statement of 
commitment.
    Mr. Israel. My time has elapsed, General. Thank you very 
much. I didn't get to ask you about professional military 
education, or General Hagee, but we would like to talk about 
that in the future.
    General Hagee. We would like to come by and talk to you 
about that, sir.
    The Chairman. I thank the gentleman. The gentleman from 
Minnesota, Mr. Kline.
    Mr. Kline. Thank you, Mr. Chairman. Thank you, gentleman. 
This is a subject which we have been poking at for at least 
three years that I know of, and my concern is still very high 
that we are not taking care of these reset issues as fast as we 
should.
    I disagree, respectfully, with my colleague from 
California, the gentlewoman who is not here. She opined it 
would be folly to address this reset issue until we knew, 
apparently, precisely what will happen in Iraq. And, of course, 
I think that there is folly here; it is not getting after it 
soon enough. It is the only responsible thing to do to get at 
this issue early. Many aspects I would like to discuss. I am 
alarmed as everyone is at the rate that we are burning up this 
equipment.
    But General Hagee, let me go to you on two issues, because 
the time is limited:
    One, I am looking at your testimony where you talk about 
MPS Squadron two and when it will reconstituted. The dates that 
you have here are between February 2008 and February 2009 it 
will be reconstituted. And I assume that is if you get the 11.9 
billion additional dollars. That is when that--and the Norway 
prepositioning, that will not be reconstituted until 2010 and 
that also assumes that all that money is there.
    General Hagee. Correct, sir.
    Mr. Kline. Not exactly next week or next year, already 
considerable delay, caused me a little bit of concern.
    The rotary wing issue I am concerned for both of you, for 
all of us, for different reasons. But the rate that the Marine 
Corps is using the CH-46 looks to be about three times the 
utilization, according to the chart in your testimony.
    General Hagee. That's correct sir.
    Mr. Kline. Hueys, three times; Cobras, over three times. 
That is an enormous rate. And you have a program in the case of 
CH-46s and the venerable CH-53Ds, some of which are flying in 
Iraq today, exactly the same ones I was taxiing around Danang 
35 years ago. And we are already in pretty--I hate to use the 
word ``desperate,'' but we are in great need of replacing some 
engine aircraft that we are now using at three times the rate.
    So going back to the question about the MV-22, you 
mentioned, General Hagee, that you got three more; had asked 
for four and got three--and the MV-22 is there in the base 
budget, under your original top line or what you have 
programmed to replace, so that is really--you are not resetting 
with this money the rotary wing aircraft, are you?
    General Hagee. We are only resetting those aircraft that we 
lost during combat.
    Mr. Kline. The four.
    General Hagee. Yes, sir. Correct.
    Mr. Kline. Really, I am having trouble with this math here 
because we are using them up three times as fast. We already 
had a way, way overaged fleet, and yet we are not using this 
resetting money to reset those not shot down or crashed, but 
just worn out much faster. Are we--looks to me like we have a 
widening gap between when the MV-22s are delivered and when we 
start running out of money.
    General Hagee. It is primarily because of our top line of 
the normal budget. While we would very much like to see that 
top line go up, we would actually like to see more MV-22s in 
that budget. The rule said as such that we need to fund those 
from within our normal budget process.
    Mr. Kline. Okay. I am sort of associating myself with Mr. 
Snyder's comments about we are going to have to step up to the 
plate here and fund some things outside the norm. And so what I 
would ask from you is, is there a way that you can look at the 
rapid utilization that we have got of the CH-46s and CH-53Ds in 
particular here, but any other aircraft for that matter, the 
rapid three times accelerated use, and see what pressure that 
puts on that MV-22 acquisition and how many more, how much 
faster we would need--in other words, what would the reset cost 
be of those MV-22s if we bought them faster, faster enough, 
fast enough?
    General Hagee. Sir, I can tell you for 1 year, for next 
year, $2 billion. But I can give you that in detail.
    Mr. Kline. Thank you. And with that, Mr. Chairman, I will 
yield back.
    The Chairman. Thank the gentleman. The gentlelady from 
California, Ms. Davis.
    Ms. Davis of California. Thank you. Thank you, Mr. 
Chairman, General Schoomaker, and General Hagee. It is good to 
see you. I do think it is appropriate for the committee to ask 
questions about comments and about plans that ostensibly have 
been around. Of course, we have talked about pieces of that, 
but I think as this committee--unless there is another 
committee, Mr. Chairman, that is also talking about General 
Casey's plan--I think that it is appropriate that those 
questions be asked. And I think we are all hoping that some of 
that would be forthcoming as well. Certainly the nuances that 
perhaps we haven't had an opportunity to discuss.
    I wanted to just go back for a second and talk a little bit 
about what is in the normal budget process and what is part of 
the supplemental.
    What part of that concerns you the most? We have many 
discussions here about the need, if we are in a long war, 
General Schoomaker, as you have testified, that perhaps some of 
this funding ought to be part of the normal process. Does it 
concern you at all that a lot of the reset is still part of the 
supplemental, and if in fact those supplementals are no longer 
funded at that rate, then the modernization program and others 
may be hurting.
    What part of that concerns you?
    General Hagee. Well, as I mentioned in my opening 
statement, with a top line of $18.2 billion and a reset cost of 
almost the same, you know it would take--if it came out of our 
top line, without doubling our top line, it would take years to 
fund that and would absolutely devastate our investment 
account, which is only about $2 billion a year. So you take 
those $2 billion and--say it is $12 billion, it is going to 
take us 6 years just to fund it, and that doesn't count the 
long lead time for some of this equipment. So the supplemental 
is absolutely critical. And if that reset would move under the 
top line, then at least for us, our top line would have to 
almost double.
    General Schoomaker. I would say that I cannot think about 
the supplemental and the base budget as two separate and 
distinct entities. We have to think about them in concert with 
one another, and we have to think about the continuation over a 
period of a program.
    And this is what I was trying to say a minute ago. When we 
are trying constantly cash flowing ourselves, we make decisions 
that are not only good--you know, they are not the best 
decision we should be making. They interrupt the momentum, 
because we have to take--we have to constrain ourselves so that 
we don't go any deficient. And it causes us to operate in the 
least efficient manner to do things. And then if supplemental 
funding is less than what it is that we require to set it, it 
impacts our base budget which is also under pressure. And I 
don't know how to make it any more clear than that.
    We have to think about those things in concert. We get 
supplemental funding for those things that are war-related. We 
do not get supplemental funding for things that normally should 
be funded in the base. And when our supplemental funding is 
interrupted, or when it is less than what is required, then it 
impacts our base because we have to sustain our operations.
    Ms. Davis of California. Part of it may be that the public 
needs to understand that as well. When we put that aside, then 
there is a sense that we are not really being upfront about 
those war costs, and clearly even if the war--even if our needs 
for Operation Iraqi Freedom (OIF) are not as clear, you are 
suggesting that supplemental would be around for a very long 
time.
    General Schoomaker. I think if you were to look at the 
Army's budget in 2005 and 2006, you will see it is 
fundamentally in the base, flat. You will see there is money we 
ordinarily wouldn't add in the supplemental. You see in the 
2007 budget that is over here on the Hill right now, an 
increase in the Army's base to help us transform and to 
modernize and do things we have to do to help break this cycle, 
this tyranny of the old way of doing business.
    And then you see the pressures and the stretching out of 
fundamental funding like what I just described a moment ago, 
and that is impacting that.
    Ms. Davis of California. I know we are not focusing largely 
on personnel here today, but clearly people are the most 
important part of our effort. And we can have all the equipment 
in the world but we need the people, we need the people in Iraq 
in leadership there, as well as our leaders. And to what extent 
is our readiness being affected by the fact that we have many 
leaders that are being pulled away from working directly and 
intimately with our own troops, with Iraqis? How do you see 
that situation, and can that be reset and how?
    General Schoomaker. Well from the Army's perspective it 
does several things. One of the things is it reduces the dwell 
time of people who are out of combat. As you know, what we 
would like to have is at least twice as much dwell; in other 
words, if 1 year in combat, we would like to have 2 years out. 
We right now are seeing something like 14, 15 months dwell 
time. That in my view is not satisfactory. That is additional 
pressure on the individuals.
    We also see the necessity of training Iraqi and Afghani 
forces, because that is the strategy to get them self-
sufficient and to move ourselves out.
    The other piece of it is that because of the speed at which 
we are having to turn over and because of the slowness of reset 
and because of the training that is required to go back in, we 
find ourselves compressed; and we have a compressed time to do 
more things than we should have to do. We are trying to reset 
the force. We are trying to get leaders into the force. We are 
trying to form the force and get them ready to go through the 
thing. So it is a lot of pressures that are placed upon both 
the individuals, equipment, units, and on the force.
    And my view is, this is a very difficult burden to bear 
over the long--carry over the long haul. And I believe that 
what we must do is accelerate ourselves, transform ourselves, 
so we have got a better base, like we have been talking about; 
get the force reset, so that we don't have all of this; and get 
ourselves into a normal sustainable stride that will allow us 
to fight the long war the way we need to fight it.
    Ms. Davis of California. And how long do you think it will 
take to do that?
    General Schoomaker. How long can we do that--or would it 
take us to do it?
    Ms. Davis of California. Yes.
    General Schoomaker. That depends on the level of support.
    The Chairman. The gentlelady will have to get the rest of 
the answer in the break. Thank the gentlelady.
    Gentleman from Texas, Mr. Conaway.
    Mr. Conaway. General Schoomaker, you mentioned there are 
$21 billion fenced off. Are these appropriated dollars awaiting 
purchase orders? Why is that money not being used? Help me 
understand that comment.
    General Schoomaker. This is procurement for equipment for 
the National Guard ground equipment.
    I think that what is you are talking about, National Guard.
    Mr. Conaway. But fenced off; is that money already being 
appropriated and waiting on purchase orders being written? Why 
have we not used the money to buy the stuff you need?
    General Schoomaker. It is across the program. It is broken 
down in yearly increments across the program, 2005 to 2011 
program. If you add up all what we have in there across those 
years inside that program, it is about $21 billion.
    Mr. Conaway. So this is money that will get spent on that 
schedule to buy the stuff the Guard needs, for example?
    General Schoomaker. That is correct.
    Mr. Conaway. Going to what Mr. Kline was talking about, 
overall concept of reset. Does that take into consideration the 
shorter useful lives on all this equipment as a part of the 
reset concept? In other words, if you have a piece of gear that 
is supposed to last 10 years, we use it up in 3. Is that part 
of the reset concept?
    General Hagee. Yes, sir. It is because you are consuming it 
there.
    General Schoomaker. And what happens is when you consume it 
faster, you come to a point where you have to actually buy a 
new piece of equipment.
    Mr. Conaway. Just the exchange with Kline seemed like the 
quicker usage was not part of reset, and that didn't make sense 
to me.
    General Hagee. This is one of the challenges with base 
budget and supplemental that is there is not always a bright 
shiny line between those two and the rule sets for them.
    Mr. Conaway. Last question General, the transformation to 
FCS is going on at the same time we are trying to reset and 
rebuy, talk to us a couple of minutes about how those things 
meld together that you don't continue to buy outdated gear at 
the same time you are buying the new gear?
    General Schoomaker. Well, FCS is our modernization program. 
Taking the Army from the Cold War Army to the modular force is 
the transformational effort. So what we are trying to do is 
take the Army--what we are doing, in fact we are well on our 
way, is taking the Cold War Army that basically had some 11 
different kinds of brigades, because there were different 
levels of--there was no standardization because of the 
incremental modernization and organization that took place 
because of the fiscal constraints, and we are trying to come up 
with one standard heavy brigade, one standard infantry brigade 
combat team, and Stryker brigade combat team. It allows us to 
be very agile. It means we can take any heavy brigade, fall in 
on any other heavy brigade equipment or on prepositioned 
stocks. So that is the transformational part.
    FCS is modernization, and this is where you now are able to 
take a like-size unit brigade combat team and do so much more 
with it because you enable it with things that allow you to 
cover much more ground, be much more lethal, and return so many 
more boots to the ground in terms of infantry.
    Mr. Conaway. Great on those two. How do you mesh that 
against replacing the gear that is actually going to be used 
this afternoon and tomorrow in combat with new things coming in 
line?
    General Schoomaker. Everything I talked about takes place 
inside of our base budget because your war costs are paid for 
under your--if we destroy an M-1 tank, we replace the M-1 tank. 
If we want to replace it, we should replace it with the modern 
version, not the old version. If you lose your Stryker, you 
replace a Stryker. And so what we tried to do is always reset 
ourselves forward not--if we lose a deuce-and-a-half, we don't 
want to replace it with a deuce-and-a-half; we want to replace 
it with a modern truck. And so you get some benefit from reset 
that way.
    But the majority of modernization and the majority of our 
transformation takes place inside of our base budget, and there 
is a tremendous amount of pressure on our base budget.
    Mr. Conaway. Thank you, Mr. Chairman, I yield back.
    The Chairman. Thank the gentleman. The gentleman from South 
Carolina, Mr. Spratt.
    Mr. Spratt. Thank you all for your testimony and for your 
service to our country. This is a difficult issue to get your 
arms around. I am sure it is for you, because there are so many 
variables in deriving these estimates. Just on the back of an 
envelope--I may be repetitious, but, General Schoomaker, as I 
understand it, your need for 2007 is $17 billion?
    General Schoomaker. Including the 4.9 billion deferred from 
2006 carryover, our requirement is 17.1 billion for 2007.
    Mr. Spratt. Does that mean your steady state beyond 2007 is 
12- to $14 billion?
    General Schoomaker. That is what we believe the steady, 
state as we know it, now is--12 to 13 billion.
    Mr. Spratt. Is that rate determined by the throughput 
capacity of the depots, or is it determined by the amount of 
the equipment that is damaged and requires depot maintenance?
    General Schoomaker. It is determined by the rate at which 
we are consuming the equipment.
    Mr. Spratt. Now, have you factored into the equation--I 
understand that you have factored into the equation, according 
to a newspaper article--I haven't heard his testimony--the 
transfer of 1,200 deuce-and-a-half trucks, 2-1/2-ton trucks, 
and 1,100 Humvees that is in these numbers.
    General Schoomaker. The numbers I have talked about, we 
have already reset it. Is that what you are talking about?
    Mr. Spratt. Yes, sir. Does that include the value of these 
vehicles that are being transferred to the Iraqis?
    General Schoomaker. Yes, that does. A lot of that is 
equipment that has been replaced by the new helmet, the new 
body armor, new trucks, and these kind. So the answer is, yes, 
that is inside of the reset number.
    Mr. Spratt. So if you need 17 for 2007, and 13 to 14 for 
several years beyond there, we are looking at a need for 50- 
$60 billion incremental costs, including 2007.
    General Schoomaker. I would say yes, for reset.
    But, you know, this year the supplemental that we received 
was pretty close to, what, 67 billion. For 06 we received--the 
United States Army received about $67 billion. Inside of that, 
only a small portion of that was for reset. The rest of it was 
for the war. And what I am saying is that in the past where we 
were estimating about $4 billion a year for reset, we now 
estimate that we are up around 12- to $13 billion.
    Mr. Spratt. Prior to the war, what was your steady state 
expenditure for this kind of recapitalization, repair, 
refurbishment, depot level maintenance?
    Mr. Schoomaker. Prior to the war, I believe we had 3 
billion, 2-1/2 to $3 billion a year inside of our base budget 
for recapitalization reset.
    Mr. Spratt. And is the 17, and after that the 14, 
incremental to the 3- to 4 billion you were traditionally 
incurring?
    General Schoomaker. That is on top of that. That is 
correct.
    Mr. Spratt. Looking out in these three or four more years 
that these costs may have to be incurred, are you including in 
those outyears the cost of transferring equipment that may be 
transferred to the Iraqis and left behind?
    General Schoomaker. Because we do know know what that is, 
it is not included in there. It is what we estimate our 
consumption will be if we stay at the same rate of consumption 
for the year.
    Mr. Spratt. So if that is included, the number is larger?
    General Schoomaker. Could be.
    Mr. Spratt. Now after repair, replacement, major fixing, is 
the life of these vehicles shortened beyond their expected life 
cycle? Even after the--once these repairs are made, is the wear 
and tear on the vehicles such that they will have a short life, 
still, than would normally be expected?
    General Schoomaker. Well, every time you fix them, you 
never get all the way back to where they were--I mean, you 
know, it is like taking a truck to the body shop and 
overhauling the motor and the engine and fixing the fenders and 
everything. You come out with a pretty good truck, but every 
time it is a little bit less than it started out before.
    Mr. Spratt. You don't completely recover its otherwise 
expected life.
    General Schoomaker. In the main, no, because you have wear 
on the frame, you have the kinds of things that end up being 
nonrepairable. It ends up being cheaper to replace it at some 
point.
    Mr. Spratt. So your concern and your objective is to see 
that this gets supplementally funded so that it won't otherwise 
eat into your operations or--especially in the transformation 
and modernization?
    General Schoomaker. Well, my concern is that we reset our 
force so that we can maintain our readiness to perform in 
defense of the Nation. You know, reset is not part of 
modernization and it is not part of transformation insomuch 
as----
    Mr. Spratt. What I am saying is if the incremental cost of 
resetting is not fully paid or funded as an incremental cost, 
as a supplemental cost of the defense budget, then it is going 
to come out of your other operation & maintenance (O&M) 
accounts or other investment account.
    General Schoomaker. To the extent that it can--that we do 
not have the money in the base to be able to do that. And so 
what you will see is not only an erosion of the base budget, 
but you'll see a rapid drop-off in readiness in our ability 
to--you will see a depot backlog, you will see a lower 
readiness in terms of our equipment and our units, et cetera.
    Mr. Spratt. General Hagee, is your estimation of your cost 
to go somewhere in the range of 5- to $6 billion, Marine Corps?
    General Hagee. That's correct, once we are completely 
caught up for fiscal year 07. The buy wave is 6.7 billion, and 
in addition to that, it would be 5.3 billion and 5.3 billion. 
Assuming that we stay at the same consumption rate we are right 
now, it would be $5.3 billion a year.
    Mr. Spratt. Is that incremental cost, or does that include 
your traditional O&M expense for this kind of----
    General Hagee. It is all incremental, sir. All incremental.
    Mr. Spratt. Thank you very much.
    The Chairman. Thank the gentleman. The gentleman from 
Nevada, Mr. Gibbons.
    Mr. Gibbons. Thank you very much, Mr. Chairman. And General 
Schoomaker, General Hagee, thank you for your presence here 
today. Thank you for your service to this country. We greatly 
appreciate that.
    I had the pleasure of reading your testimony and listening 
to your comments today. I am still going to have to go back 
over some ground we have already covered, the 17.1 billion that 
you have identified that Mr. Spratt was just talking about.
    Where in there is the 21 billion or the 1.9 billion for 
aviation in the National Guard? In what part of that? Or is 
that a separate part that we are talking about, to reset the 
National Guard?
    General Schoomaker. The National Guard reset of their 
equipment is included in our reset costs. The 21 billion for 
ground equipment and the 1.9 billion for aviation for the 
National Guard is separate from the reset. It is in our base 
budget.
    Mr. Gibbons. Do the Army and the Marine Corps usually reset 
their equipment on a one-for-one basis?
    General Schoomaker. Yes.
    General Hagee. I think for us that would depend. General 
Schoomaker has already talked about the modernization, and we 
would not necessarily replace an old piece of equipment with a 
same old piece of equipment. And in fact the new piece of 
equipment, we may need fewer, we may need the same number, so 
it really depends on the equipment, sir.
    General Schoomaker. I have the same answer.
    Mr. Gibbons. I heard you say that there is a wear factor 
now on the equipment of about 9 to 1. Is that correct? In other 
words, what would normally be available, say, for 27 years, we 
are wearing it down to 3 years and wearing it out, or something 
of that nature, was that something----
    General Hagee. Once again, that depends on the piece of 
equipment.
    Some of them are really quite high like that, some of them 
are 2 to 1. For us, the average is probably around 5 to 1. 5 to 
1.
    Mr. Gibbons. So I presume that the reset equipment that you 
are ordering has design changes to remove some of the wear 
factor that you are finding in the environment of being over in 
the Middle East. For example, the bearings on a Humvee have got 
to wear out much faster when you have added weight for the up-
armor on a Humvee. You have to change the bearings in two 
different----
    General Schoomaker. Humvee is a good example. We have gone 
to the 1151, 1152 series Humvee, which is a much heavier 
Humvee, to be able to carry the weight; because what we were 
doing originally with the 998s and 1025s and all the rest of 
them, was there was more weight on them than they were designed 
to sustain.
    Mr. Gibbons. In your reset allocations, do the Guard and 
Reserves have the same priority in a reset as the Active Duty 
forces?
    General Hagee. For us, when we are resetting, we look at 
the Regular and Reserve the same way. And both of them are 
included in the reset. When we make----
    Mr. Gibbons. Being included in identifying the amount of 
dollars is one thing, and I have heard that. I just want to 
make sure that the guard and reserve gets the same priority on 
reset as do the Active Duty forces.
    General Hagee. Yes, sir, they do. Now, when we actually 
allocate the equipment, because, as we talked about, the 
equipment comes in over a period of time, it would depend on 
which unit is getting ready to go as far as who would get that 
equipment. It could be a Reserve unit or it could be an Active 
Duty.
    Mr. Gibbons. Let me ask one final question, Mr. Chairman. 
When the equipment is designated to be a leave-behind piece of 
equipment--donation, for better word, to the Iraqi forces or to 
the Afghani forces, wherever it is going to be, what type of 
equipment is considered for that donation?
    General Schoomaker. The equipment that we have been asked 
to leave behind is excess equipment, or equipment that is--put 
that chart back up again. For instance, I talked about the the 
2-1/2-ton trucks. These are not vehicles we plan to replace.
    We are replacing them with modern vehicles, not with 2-/12 
ton.
    Mr. Gibbons. They are more like legacy equipment.
    General Schoomaker. Legacy equipment. Also body armor that 
we have replaced with new body armor, helmets that we have 
replaced with the new helmet, weapons we replaced with the M4, 
night vision that is still good night vision but there is a 
backside cost to that.
    Mr. Gibbons. I imagine the backside cost is making sure 
that every piece of equipment you leave as a donation has to be 
serviceable and operative.
    General Schoomaker. Has to be serviceable.
    Mr. Gibbons. Requires you to make that cost up front before 
you donate it.
    General Schoomaker. And where it was being used in lieu of 
a piece of equipment for a unit that has to be replaced.
    Mr. Gibbons. Gentlemen, again thank you for your presence 
here today. Mr. Chairman, I yield back the balance of my time.
    The Chairman. I thank the gentleman. The gentlelady from 
Guam, Ms. Bordallo.
    Ms. Bordallo. Thank you very much, Mr. Chairman and General 
Schoomaker and General Hagee. It is good to see you again, and 
thank you for your service to our country. And, General Hagee, 
thank you for all the marines that you are sending to Guam.
    I am aware that the Army determines what equipment a unit 
should have in a table known as a modification table of 
organization and equipment, or MTOE; is that the way you 
pronounce it?
    General Schoomaker. That's correct.
    Ms. Bordallo. Military units prior to Operation Iraqi 
Freedom had very few noncombat vehicles on their MTOE that were 
armored, and, I understand in a mechanized infantry battalion 
other than the Bradlee fighting vehicles, only 10 of the 
battalions other vehicles were armored. In light infantry 
battalions, I believe all the vehicles on an MTOE were 
unarmored.
    Can you tell me if the Army and Marine Corps have adjusted 
their equipment authorizations for units to account for the 
need for all vehicles, including combat and support vehicles, 
to be armored? And do the current equipment reset numbers take 
into account the need to reset the Army and Marine Corps with 
all vehicles being armored? If not, what sort of increased cost 
will such a requirement involve?
    General Schoomaker. When we started this, we had around 500 
up-armored Humvees in the entire United States Army. We now 
have in excess of 12- to 13,000 up-armored Humvees right now. 
We have over 30,000 up-armored vehicles in theater.
    It was never our intention to have all of this equipment 
up-armored. Obviously now, when we recognize we might have this 
kind of thing in the future, what we want to do is have the 
option to have this equipment armored. So the way we are now 
constructing our Humvees, or newest ones, is to have the the 
armor to be able to be placed on or removed; so we don't 
unnecessarily wear the vehicles out when we don't need the 
armor, and when we need it we can put it on. And this is the 
transition we are talking about going to the 1151, 1152 series 
heavier vehicles. The same with our supply trucks and cabs of 
our tractors, and all the rest of these vehicles over there.
    And so all of this up-armoring we have done is going to be 
part of the Army of the future, beyond this fight.
    It is clear that that is one of the things that has become 
very evident through our experience here in this kind of 
conflict. The way we are now having to operate, where you don't 
have the old Cold War lines delineated with areas, et cetera, 
that up-armoring is going to be a part of our future.
    Ms. Bordallo. So then your answer, General, is that all of 
the vehicles in one way or another could be armored. If you 
don't need it, it can be removed; is that correct?
    General Schoomaker. I would probably say it is clear to say 
the majority will be.
    Ms. Bordallo. Couldn't give us a number on that?
    General Schoomaker. For the record we will. It is in the 
tens of thousands.
    [The information referred to can be found in the Appendix 
on page 67.]
    Ms. Bordallo. As you know, gentlemen, I am a strong 
supporter of the National guard and reserve forces of our 
Nation. On Guam we have the largest number of National Guard 
and Reserve, per capita, of any State in the United States.
    And we have continuously been speaking in terms of a total 
force. But nonetheless, it really had two forces, one Active 
Duty and one Reserve. This has been especially true when we 
look at equipment. Today the situation is worse.
    The guard and reserve units, having been activated in 
enormous numbers and for multiple missions, were rapidly 
fielded equipment so that they could perform their assigned 
missions when mobilized. They brought with them to combat 
everything they already had, everything they could borrow in 
interstate units. Unfortunately, as you know, many of these 
units later returned home with little to nothing, as their 
equipment remained in the combat theater.
    If they had insufficient equipment to train with before, 
the situation is now worse.
    So my concern is first, guard and reserve units are already 
disadvantaged because they do not have the equipment. This 
requires them to undertake longer mobilization because they 
need additional time before deployment to field new equipment 
and to have time to be trained.
    This creates an onerous guard and reserve mobilization 
requirement of some 18 months to 2 years instead of 12 to 13 
months that it should be.
    Second, the services have had a poor record of assisting 
the National Guard in equipment fielding. When budgets get 
tight, the National Guard seems to get the squeeze.
    I believe this may be in part because the guard and reserve 
do not have a strong voice who is on equal footing on the Joint 
Chiefs of Staff.
    So can you tell me what is being done to address these 
concerns General, or General Hagee, whichever?
    General Schoomaker. This is the situation we are trying to 
correct. This is why we have made the commitment in our base 
budget, and this is why we have brought the guard and reserve 
into the reset business and why we are doing what we are doing.
    The big difference in the guard and reserve is that they 
are no longer purely a strategic reserve, but they are now very 
much part of the active force of the all-volunteer force total 
Army, and this is a big change in paradigm from the Cold War. 
And so this is exactly the situation that we are trying to 
rectify.
    General Hagee. I associate myself with General Schoomaker.
    Ms. Bordallo. Thank you very much. Thank you, Mr. Chairman. 
Thank you, Mr. Chairman.
    The Chairman. Thank the gentlelady. The gentleman from 
Michigan, Mr. Schwarz.
    Dr. Schwarz. Thank you very much, General Schoomaker and 
General Hagee. And thank you for being here. I don't picture 
myself as an expert on military logistics, so I am learning a 
great deal here today. But being from Michigan and having 
facilities in my State that I deal especially with tracked and 
wheeled vehicles, I am interested in the reset and reequipping 
of both the Army and the Marine Corps.
    What I am hearing is that there may not be the capacity out 
there now to do what really needs to be done, and that we are 
in a little bit of a fix. You are in a little bit of a fix from 
the standpoint of being unable to fund as rapidly as you would 
like to fund the reset. And conceivably we are in a little bit 
of a fix regarding facilities to do this.
    You say that the depots have additional capacity. Do they 
have the capacity to do everything that needs to be done?
    Second, if the balloon went up someplace else in the Middle 
East, anyplace in the world, what I am hearing right now is the 
contingency strength, the contingency logistics, the 
contingency manpower is not there to face--to deal with another 
area in the world, Horn of Africa, someplace else in the Middle 
East, Central Asia, South Asia. We really couldn't do it now, 
could we, if we had to, for a number of reasons: not enough 
manpower, not enough equipment, not enough rotary lift, not 
enough fixed wing lift, not enough tracked vehicles, not enough 
wheeled vehicles. We have a logistical problem now.
    Just as a generalization, would that be a relatively fair 
assumption?
    General Schoomaker. The first part of your statement I 
would say that I don't agree with. I think our challenge is 
funding, not capacity, and I tried to allude to that in the 
five depots. As you know, right now we have about 60 percent of 
work taking place in depots and about 40 percent taking place 
in commercial contract partners.
    The second piece of your statement I think would be better 
answered in detail in the closed hearing which is, I 
understand, to come.
    Dr. Schwarz. I don't want details. I understand that. But I 
think it is appropriate for the American people to know, 
because you need their support and there is a problem here. And 
Mr. Kline and I have had this conversation a number of times. 
We have been talking reset now for at least a year and a half, 
and don't seem to get to it with the intensity and enthusiasm 
that we should be getting to it. So I don't think it is 
inappropriate for the American people to know in general that 
there is--we may be a little bit behind the curve from a 
standpoint of replacement of various and sundry logistic items. 
And in fact, we may be a brigade or so short in manpower in the 
Army, and we may be several thousand short in the Marine Corps 
of what we ought to be, because if the American people know 
this, I believe that they are perfectly willing to say to the 
Congress, let's give the Army and the Marine Corps and the Air 
Force and the Navy the wherewithal they need to fight the war 
on terror.
    And I am not certain that wherewithal is here right now. 
And, further, I am not certain that were there another front 
someplace, were we called into action someplace in addition to 
Iraq and Afghanistan and the Horn of Africa and other places 
where we have troops, I am not certain that we would be able to 
do it.
    So in general, I don't want details. I understand why 
details are not appropriate in an open hearing. But in general, 
it seems appropriate--and I am making the statement, and I 
apologize for doing that, because I usually don't--but in 
general, would it not be appropriate for the American people to 
know we need a little bit more push, we need a little bit more 
support from Congress for our military?
    Mr. Saxton [presiding]. Mr. Schwarz, let me make a 
suggestion. Why don't we do this? We are going to go upstairs 
in a little bit. Why don't we talk about this there, and then 
make a decision about whether we want to do it this publicly 
after we have that discussion, if that is okay?
    Dr. Schwarz. Mr. Chairman, I will certainly accede to your 
wishes, but I think I am pretty clear where I was going with my 
quasi statement, quasi question. Thank you, Generals.
    General Schoomaker. Sir, I would just like to say one 
thing. We need what we have asked for.
    We need what we have asked for.
    Mr. Saxton. Thank you very much, Mr. Schwarz. Mr. Udall.
    Mr. Udall. Thank you, Mr. Chairman. Welcome, Generals. As 
always, it is great to see you here. General Hagee, I read your 
prepared statement with interest in particular in the area of 
your prepositioned stocks and the important role they play. 
Would you be willing to educate me a little more about the 
concerns you have there and also the ways in which that effort 
works for us at this point?
    General Hagee. Yes, sir. We have three maritime 
prepositioning squadrons. Each one of those squadrons contains 
the equipment and the sustainment for about a brigade of 
marines, around 15,000 marines. The ground component of that 
particular brigade gives us the capability and flexibility to 
send that size of force almost anywhere in the world, where you 
have maritime--maritime access.
    We took down two of those squadrons to about 30 percent of 
their capacity and used that equipment in Iraq and Afghanistan. 
From a strategic standpoint, we kept one of the squadrons up 
and ready to go.
    And as you saw in my statement, one of those squadrons--two 
that we took down--will be ready by 2008; and the next one, I 
believe is the following year if I remember that correctly, it 
has already come up from where it was about 30 percent last 
year and it is approaching 65 percent capacity now. And that is 
primarily due to the supplemental that we got last year. To 
bring it all the way up, the resources required are included in 
our supplemental request for this year.
    Mr. Udall. I remember our conversation a few months ago 
about the importance of the $5 billion in particular in that 
realm. We have, of course, talked about materiel here but, 
people are crucial to either retrofitting, doing the 
maintenance; and do you see an up-tick in this reset process, 
to the people in the Corps to get the job done, the diverse 
jobs done that you have outlined here?
    General Hagee. Right now in our base budget we have 
authorized 175,000 marines. Through supplemental funding, we 
have about 180,000 marines in the Marine Corps right now. Based 
on current operations, I believe that is what we need is around 
180,000 marines.
    Mr. Udall. I mentioned to you the marine I saw at Abu 
Ghraib who said, yeah, the marines get more done with less.
    General Schoomaker, not to imply anything about the Army, I 
know the Army does the same thing. One of my concerns turning 
to you, sir, is can the industrial base meet the demand that 
the Army has outlined when it comes to maintenance 
recapitalization and new production?
    General Schoomaker. Well, it is my belief that they can. I 
don't know if, I don't know that they--everybody back here is 
saying yes. I know what their depot capacity is and I know we 
are not exceeding that, and I know that we have had some 
significant support out of our industrial partners. So, I would 
say yes.
    Mr. Udall. You noted that--and forgive me because the 
hearing's gone or on for a while, if you answered this 
earlier--that we are going to push $5 billion of reset into 
2007. And what keeps us from getting at that work this year? Is 
it the funding, the ability to make the acquisitions or do the 
maintenance? Or is it a combination of all three?
    General Schoomaker. It is our belief it is funding.
    I don't think we are strapped in terms of capacity. I think 
that it is funding.
    Mr. Udall. Always seems to come to that, doesn't it?
    General Schoomaker. Yes, sir.
    Mr. Udall. I also note that you talked a bit about if we 
don't get the 17 billion in the 2007 process. And I think that 
I will just carry my question over, as we did with Mr. 
Schwarz's on the session--I think it will begin at 4 o'clock--
about the impact if we continue to defer those needs into the 
future.
    Again, I want to thank you for being here. And I am 
reminded of the old aphorism that strategy is for amateurs and 
logistics is for the experts. So I want to thank you for your 
good work in keeping our Nation prepared.
    Mr. Saxton. Mr. Davis.
    Mr. Davis of Kentucky. Thank you, Mr. Chairman. The 
comments on logistics remind me of painful days as a 
maintenance officer a long time ago. But the one thing I want 
to comment on is the gentlelady's comments from California 
earlier regarding need for a transition plan. I remember 
meeting with friends nearly a year and a half ago who laid out 
quite clearly an operational concept General Casey had for 
successful elections for the Iraqis standing down our forces. 
And it is no surprise to me that we are standing down. We have 
reduced our end strength by 35,000 in theater, and I am quite 
encouraged, in fact, that the operational concept that has been 
employed by the combatant commanders is, in fact, playing out 
over time.
    I know it probably shocks you that politicians have short-
term concerns that will drive a lot of the dialogue, but from a 
strategic perspective, one thing I would like to take the 
horizon out further--and not so much on Iraq, but if you could 
comment, General Schoomaker, if and how the current transition, 
particularly with modularity, is working long term into the 
FCS, full FCS system, say, 10 to 15 years down the road with 
the current demands on the logistic infrastructure and also 
from a force structure standpoint.
    I am going to come back for a follow-up with both of you.
    General Schoomaker. I think one of the best examples of 
what modularity does for us is the fact that we are now able to 
avoid significant transportation charges because we can now 
move a modular brigade on top of a modular brigade's equipment 
in Iraq, let's say, without having to move that brigade's 
equipment. It can fall in on the brigade's equipment that it is 
leaving, you know, the one that is being left. And the brigade 
that is leaving Iraq can fall back in on equipment that we did 
not have to transport. That is some of the agility you would 
achieve out of standardizing your formation.
    We are well down this road and we need to maintain the 
momentum to get this complete, because once we are totally 
modularized, that will allow us to take active, guard, or 
reserve formations, fall in on prepositioned stocks, fall in on 
equipment, and rotate on equipment in the combat zone. And it 
will significantly help us reset, you know, and do this 
training in a more complete way as we prepare our forces. So I 
think we are already seeing the benefit of the modular force 
and of unit manning as opposed to individual manning of the 
force.
    And when we get into the closed session, I will be glad to 
show you some of that in terms of what impact it has on 
readiness.
    Mr. Davis of Kentucky. Thank you. Just as a follow-up to 
Congressman Israel's question, we are dealing a lot with 
hardware. But software, with the dwell time and off tempo being 
what it is, very demanding, how are you all addressing the 
professional development needs of our--in both services--of our 
noncommissioned officers, and particularly of the company-grade 
and Junior field-grade officers, for the demands that are being 
placed on them to assure that not only they grow and adapt and 
pass the lessons learned on but also stay in the force.
    General Hagee. We are doing quite a bit in that area, both 
for officers and for enlisted. And even though we have used 
supplemental funding in the past, we are moving that to our 
base budget. We strongly believe that we are going to--we need 
to continue that for some time to come.
    I have been relatively happy where we were with 
professional military education for our officer corps. I think 
we have done a fairly good job on that. I have been less happy 
with the non-commissioned officer (NCO) staff; NCO, the 
enlisted education. And over the past couple of years, we have 
significantly enhanced that education for squad leaders, for 
corporals, and for staff NCOs.
    General Schoomaker. In our transformation, we have touched 
virtually every aspect of training and education. I will start 
with our field-grade officers. We are now putting 100 percent 
of our field-grade officers through intermediate-level 
education which is the Command and General Staff level. And 
inherent in that now is JPMA, Joint Military Professional 
Education I, so every field-grade officer or senior captain 
that we are putting through, say the Leavenworth C-level 
experience, is not only getting the Joint Basic Education but 
is receiving the Command Staff level.
    If you take a look at our Company Commanders' Course, it 
has been transformed in terms of--because of the experience we 
now have we have gone to a whole different way of doing that. 
If you take a look at our Basic Officer Education same thing.
    Take a look at our initial entry training for our enlisted 
soldiers, totally revamped and changed. You look at our 
noncommissioned officer education system, all the way to the 
Sergeant Majors Academy, it has been realigned. We are moving 
the backlog through this system. And, in my view, it is a 
really good news story. This is the most significant investment 
that we--I am sure both of us feel the same way. This is the 
investment we must make for the future.
    Additionally, we are leveraging things. For instance, I 
looked at the language training on their own time system. We 
have got this Rosetta Stone system now that is Web-based. I 
looked at the last 6 months; we had over 140,000 subscriptions 
to language training, and most of those are in the strategic 
language courses that we want: Arabic, Chinese, Farsi, these 
kinds of things. So my view is we are making some great 
progress there. We will continue, in my view, to mature this, 
and it is going to be one of the most important investments we 
make.
    Mr. Saxton [presiding]. I would just like to inform 
everyone of our situation. We are about to have four votes on 
the House floor, a 15-minute, two 5s, and another 15. What I 
would like to suggest is that when that happens, we will go as 
far as we can; it will be at least through Mr. Taylor and Mr. 
Bartlett and perhaps further. Then we will adjourn this hearing 
and use the time we are away to move upstairs, and then we will 
start with the next questioner on this list.
    Mr. Taylor.
    Mr. Taylor. Thank you, Mr. Chairman. I thank the gentlemen 
for sticking around this long.
    In this year's defense authorization bill that passed the 
House, we called for one jammer per vehicle that leaves the 
gate in Iraq and Afghanistan. I am curious, in the numbers that 
you propose to the committee, whether or not you had accounted 
for that or if you are going to need additional funds.
    The second thing, General, and to that point is just a 
couple of weeks ago, maybe a couple of months now, I had the 
opportunity to visit Camp Shelby with General Blum, and in the 
course of speaking to a young Oklahoma guardsman who was 
getting ready to leave for Afghanistan, I asked him what he 
did. He is a HMMWV driver. How much time have you had training 
with the jammers? His answer was, and General Blum is my 
witness: What is a jammer? That kid is in Afghanistan now.
    I had great visits from General Honore and others, but the 
bottom line is I remain concerned that if we don't have enough 
jammers for the theater, and we don't have enough jammers for 
them to train before we get to theater, something is wrong 3 
years into the war. And I was hoping that in the course of this 
hearing you could tell me something that this is being 
addressed.
    The other thing that I would hope, I very much appreciate 
your statement when you say when we replace an M-1, we want to 
replace it with a good one, not one of the old ones. I think 
the HMMWV--and I have been one of the proponents of arming 
them--is past its useful life. I think it is time for--based on 
what is happening in Afghanistan and Iraq, it is time for some 
sort of a V-hulled-shaped vehicle that will deflect a blast 
that is unfortunately killing half the Americans in Iraq and 
Afghanistan. And I was wondering, toward that end, what are we 
doing to get there? Because I think that flat bottom HMMWV is 
just--I don't think you can put enough armor on that flat 
bottom to make up for the fact that it is a flat bottom and 
going to absorb the full force of that blast.
    General Schoomaker. First of all, I am fully aware and I 
followed with great interest the entire thing a month ago where 
you were at Camp Shelby and the situation that you described. 
And I know that the General Honore has been over and sat with 
you and talked through all that. I know the Vice Chief of Staff 
of the Army has discussed it with you. And we are committed to 
doing what we told you we would do in those discussions, both 
in training and in combat, with the jammers. And this is a high 
priority. We have spent over $1 billion on jammers in 
supplemental funding, and I can get you the details on that 
funding, but we are committed to it. But so----
    Mr. Taylor. To the point of the committee passed an 
amendment that says every vehicle that leaves the gate has a 
jammer, is that included in your request? Are the funds for 
that?
    General Schoomaker. We have requested for all of the 
jammers we need. I don't know, I don't want to make that 
statement. We will check and follow up for the record.
    [The information referred to can be found in the Appendix 
on page 67.]
    General Schoomaker. On the V-hulled vehicles, as you know, 
part of supplemental funding has paid for the armored security 
vehicle, ASVs. That is the kind of vehicle that we recognized 
early on we had to have, and so we purchased a lot of them.
    What is interesting is that is one of the things that we 
took a nick on in the budget process. We had $100 million cut 
out of the ASC program, which is a V-hulled vehicle that----
    Mr. Taylor. If I may, General. Again, I am a proponent. I 
hope, it sounds like you are a proponent. You are the expert. 
And if that is important to you, I would hope that you would 
use the prestige that you carry to make that happen. And I 
think you can make that happen.
    General Schoomaker. That is what we are trying to do, I 
mean, whatever prestige we have. But I have said it, we are 
requesting 100 percent of what we need. We are not gilding the 
lily; we are not asking for things we don't think are 
important. We are putting it out there.
    My problem and the dilemma that we are trying to articulate 
here is rolling this forward the way we are and getting the--
discontinuity in programs is detrimental to getting where it is 
we want to go. And, of course, we are looking for a future 
replacement for the HMMWV to deal with the issues that you are 
talking about.
    Mr. Taylor. Mr. Chairman, for the record--and I don't 
expect you gentlemen to know this, but you are the only guys 
with four stars on at the witness table. I remember when 
Secretary Wolfowitz years ago misspoke when he said that Iraqi 
war money would pay for all this. I would be curious for the 
record to know how much the Iraqi Government does contribute 
toward their own defense. I don't know that that number has 
ever come out in this committee, and I think it is something 
the American people would be interested in knowing, for the 
record.
    Mr. Saxton. I thank the gentleman. It is a good thought.
    Mr. Bartlett.
    Mr. Bartlett. Thank you very much.
    The Army's Huey has been in service now for over 40 years. 
What is OSD Army doing to ensure that the next light utility 
helicopter for the Army has the ability to perform the mission 
for the long haul similar to the Huey? What kind of growth 
potential are you looking for for the next light utility 
helicopter?
    And I would encourage you to look for the best value in the 
next helicopter, meaning in part that the Army would select a 
modern off-the-shelf aircraft that has the inherent growth 
potential to serve the Army and National Guard for decades to 
come.
    General Schoomaker. Was that a question, or----
    Mr. Bartlett. Well, I had two questions before that. What 
is OSD and the Army doing to ensure that the next light utility 
helicopter for the Army has the ability to perform the mission 
for the long haul? Will it be as good as the Huey? And what 
kind of growth potential are you looking for in the next light 
utility helicopter?
    General Schoomaker. I think that you know both the light 
utility helicopter and the ARH, the armored reconnaissance 
helicopter, are both basically off-the-shelf technologies that 
we are making significant investments in using Comanche money 
from the cancelled Comanche program. I will be glad to have 
somebody come over and lay down all of the specifications of 
what it is. And, by the way, the Guard and Reserves will get 
these helicopters.
    Mr. Bartlett. Thank you. I have several additional 
questions, but in the interest of time, Mr. Chairman, I will 
submit those for the record, if that will be okay.
    Mr. Saxton. Thank you very much, Mr. Bartlett.
    Mr. Shuster.
    Mr. Shuster. Thank you, Mr. Chairman.
    Thank you, gentlemen, for being here with us.
    Trying to get my hands around the reset programs, both have 
different, similar but different, reset programs. But first the 
Army, I about 10 months ago went to Lima, Ohio, to the tank 
reset program out there, and there was a reset and a recap. The 
reset gets it back up to be battle-worthy; a recap is taking it 
down to zero hours, zero miles.
    And when I was out there, a question I asked was: Do we 
look at cost per mile or cost per hour of those two different 
programs, reset versus recap? And I do know that the recap is 
much more expensive if you put all the new technology on it. 
The numbers I have are to reset a tank is about $900,000; to 
recap it is $1 million basically, unless you add a lot of 
technology to it. And it would seem to me that if we are going 
to be efficiently spending our dollars, looking at $100,000 
seems like it is, what, 10 percent more. It doesn't seem like 
it is. But if you look at it per cost per mile or cost per 
hour, it may be a much better cost for us. And nobody seemed to 
be able to get me those numbers. I wonder if that is something 
you can get to me and help me understand that.
    General Schoomaker. We have, I think, four different kinds 
of M1 tanks, at least four kinds of M1 tanks. We want two. We 
want system enhancement package (SEP) or Abrams Integrated 
Management Program (AIM). And so every time we reset a tank, we 
want to reset it to either SEP or AIM level. And by doing that, 
we will pay ourselves back by the cost avoidance and the 
savings we get by having commonalities of fleet. One hundred 
thousand dollars is nothing; that could be one day's repair 
part for one tank, you know, the expense that is involved in 
it. So it is very important for us as we reset, especially if 
we are recapitalizing, that what we do is don't set it back to 
where it was, but set ourselves in a direction that gets us the 
benefits of having commonality.
    Mr. Shuster. But I thought what I learned out there, we 
were resetting them; we weren't upgrading them to the SEP or 
the AIM, we were just making them battle-worthy again. And that 
is where my question comes in. Cost-per-mile basis or cost-per-
hour, however you look at it, we should be upgrading those 
tanks.
    General Schoomaker. I think it is a good point, and we will 
look at it, and we can get back to you. But I think the bigger 
idea is that what we are trying to do is to take all of the 
Deltas out of the system and to get ourselves into an 
efficient, supportable, sustainable fleet into the maximum 
extent we can. And I think you know that we built no more new 
tanks, we built no more new Bradleys, these are all 
remanufactured. So we are going to the extent we would like to 
recapitalize.
    [The information referred to can be found in the Appendix 
on page 67.]
    Mr. Shuster. Absolutely.
    And the second question is, the Marines and the Army have, 
from what I read--that the Marines, you either reset, you don't 
recapitalize them, or you replace them. Is that correct in 
understanding that there is no step in between there of 
rebuilding?
    General Hagee. Well, unfortunately, it sounds like we are 
using the reset. When I talk about reset, I am talking about 
recapitalization, I am talking about reconditioning, or I am 
just talking about plain maintenance. I think there is another 
definition of reset which you laid out, but that is not what I 
mean by reset. So we are doing all of those.
    Mr. Shuster. So my understanding is then that the Army and 
the Marines are basically--when you say reset, you are doing 
all those things basically the same? There isn't a step missing 
from the Marines versus the Army when it comes to the reset 
program?
    General Hagee. There is not a step missing. I believe that 
we are probably buying more new equipment because we don't have 
the capacity, we don't have the numbers to bring them back in 
and recapitalize them. So in many cases we are buying new 
equipment. But I believe that we are taking the same steps.
    Mr. Shuster. If I understand that you don't have the 
numbers as far as the pieces of equipment to bring them up, or 
you don't have--the capacity is not there to recapitalize them?
    General Hagee. No. If you are at war, and you have to take 
something off line, and it comes off line for a long period of 
time to remanufacture it, or you buy it new, you use that one 
until it is used up, and then you can replace it, in many cases 
that is what we are doing because we don't have the large 
capacity to allow us to take something off the line and 
recapitalize it.
    Mr. Shuster. Because you need it back in the field.
    General Hagee. That is correct.
    Mr. Shuster. Thank you very much.
    Mr. Saxton. We are going to go to Mr. Butterfield. The good 
news is the Chairman has decided that we are going to end 
today's activities after the next 5-minute question, and then 
we will reschedule the later session for a convenient time so 
we don't have to have you guys hanging around.
    Mr. Butterfield. Thank you, Mr. Chairman.
    And thank both of you for coming again today. I have seen 
both of you many times, and it looks good to see you again. 
Thank you very much.
    The hour is late, and I am not going to belabor this any 
longer than I have to, and perhaps I can get one on one with 
you later if I have any specific questions. But one thing that 
intrigues me probably more than anything else based on the 
briefing material that I received today from my staff basically 
says that the Guard in my home State of North Carolina deployed 
with 18 Apaches and came back with none. Does that sound 
accurate? General Schoomaker?
    General Schoomaker. General Vaughn tells me that what we 
did--that is accurate what you stated, but they were replaced 
with other aircraft.
    Mr. Butterfield. And how does that compare with other 
States across the country? Are they losing a lot of equipment, 
the Guard?
    General Schoomaker. What we are having a conversation about 
here, basically we are doing the same thing we are doing with 
the active. Where it doesn't make sense to move things back and 
forth because of the expense, what we are doing is leaving 
equipment to rotate on, and then replacing it just like we are 
with the active force at home. As we reset equipment, we will 
replace it with reset equipment.
    Mr. Butterfield. Well, if my State is not unique, if this 
is commonplace throughout the country, then we do indeed have a 
serious equipment problem. The information that I have is that 
we have eight that are on loan from Idaho, but that we haven't 
replaced the whole fleet.
    General Schoomaker. You are accurate. We do have an 
equipment problem, and that is what we are trying to fix.
    Mr. Butterfield. Let me associate myself with the other 
remarks here today and let you know that you have my total 
support. Thank you.
    I yield back.
    General Schoomaker. Now, the solution to your equipment 
problem is backed up in the depots. If we had the money, we 
would be replacing your equipment faster, and we would be 
happier because we would be more ready.
    Mr. Butterfield. Thank you.
    Mr. Saxton. Thank you both very much for your patience and 
for sticking with us here today. You have got our attention, 
and we are going to try to be helpful.
    Mr. Skelton.
    Mr. Skelton. I would like to have in a classified forum, 
General, a list of all of the CONUS combat brigades and their C 
ratings.
    General Schoomaker. Yes, sir.
    Mr. Skelton. Thank you very much.
    Mr. Saxton. Once again, thank you, and we will look forward 
to seeing you again soon. Thank you.
    [Whereupon, at 4:20 p.m., the committee was adjourned.]



=======================================================================




                            A P P E N D I X

                             June 27, 2006

=======================================================================





=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             June 27, 2006

=======================================================================

      
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


=======================================================================


             QUESTIONS AND ANSWERS SUBMITTED FOR THE RECORD

                             June 27, 2006

=======================================================================


                  QUESTIONS SUBMITTED BY MS. BORDALLO

    Ms. Bordallo. Can you tell me if the Army and Marine Corps have 
adjusted their equipment authorizations for units to account for the 
need for all vehicles, including combat and support vehicles, to be 
armored? And do the current equipment reset numbers take into account 
the need to reset the Army and Marine Corps with all vehicles being 
armored? If not, what sort of increased cost will such a requirement 
involve?
    General Schoomaker. [The information was not available at the time 
of printing.]
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. TAYLOR
    Mr. Taylor. To the point of the committee passed an amendment that 
says every vehicle that leaves the gate has a jammer, is that included 
in your request? Is the funds for that?
    General Schoomaker. [The information was not available at the time 
of printing.]
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. SHUSTER
    Mr. Shuster. But I thought what I learned out there, we were 
resetting M1 tanks; we weren't upgrading them to the SEP or the AIM, we 
were just making them battle-worthy again. And that is where my 
question comes in. Cost-per-mile basis or cost-per-hour, however you 
look at it, we should be upgrading those tanks.
    General Schoomaker. [The information was not available at the time 
of printing.]

                                  <all>

</pre></body></html>
